<html>
<title> - H.R. 2517, DOMESTIC PARTNERSHIP BENEFITS AND OBLIGATIONS ACT OF 2009</title>
<body><pre>[House Hearing, 111 Congress]
[From the U.S. Government Publishing Office]




 
  H.R. 2517, DOMESTIC PARTNERSHIP BENEFITS AND OBLIGATIONS ACT OF 2009

=======================================================================

                                HEARING

                               before the

                   SUBCOMMITTEE ON FEDERAL WORKFORCE,
                    POSTAL SERVICE, AND THE DISTRICT
                              OF COLUMBIA

                                 of the

                         COMMITTEE ON OVERSIGHT
                         AND GOVERNMENT REFORM

                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED ELEVENTH CONGRESS

                             FIRST SESSION

                                   ON

                               H.R. 2517

 TO PROVIDE CERTAIN BENEFITS TO DOMESTIC PARTNERS OF FEDERAL EMPLOYEES

                               __________

                              JULY 8, 2009

                               __________

                           Serial No. 111-15

                               __________

Printed for the use of the Committee on Oversight and Government Reform


  Available via the World Wide Web: http://www.gpoaccess.gov/congress/
                               index.html
                     http://www.oversight.house.gov


                  U.S. GOVERNMENT PRINTING OFFICE
52-628                    WASHINGTON : 2009
-----------------------------------------------------------------------
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092104 Mail: Stop IDCC, Washington, DC 20402�090001

              COMMITTEE ON OVERSIGHT AND GOVERNMENT REFORM

                   EDOLPHUS TOWNS, New York, Chairman
PAUL E. KANJORSKI, Pennsylvania      DARRELL E. ISSA, California
CAROLYN B. MALONEY, New York         DAN BURTON, Indiana
ELIJAH E. CUMMINGS, Maryland         JOHN M. McHUGH, New York
DENNIS J. KUCINICH, Ohio             JOHN L. MICA, Florida
JOHN F. TIERNEY, Massachusetts       MARK E. SOUDER, Indiana
WM. LACY CLAY, Missouri              JOHN J. DUNCAN, Jr., Tennessee
DIANE E. WATSON, California          MICHAEL R. TURNER, Ohio
STEPHEN F. LYNCH, Massachusetts      LYNN A. WESTMORELAND, Georgia
JIM COOPER, Tennessee                PATRICK T. McHENRY, North Carolina
GERALD E. CONNOLLY, Virginia         BRIAN P. BILBRAY, California
MIKE QUIGLEY, Illinois               JIM JORDAN, Ohio
MARCY KAPTUR, Ohio                   JEFF FLAKE, Arizona
ELEANOR HOLMES NORTON, District of   JEFF FORTENBERRY, Nebraska
    Columbia                         JASON CHAFFETZ, Utah
PATRICK J. KENNEDY, Rhode Island     AARON SCHOCK, Illinois
DANNY K. DAVIS, Illinois             ------ ------
CHRIS VAN HOLLEN, Maryland
HENRY CUELLAR, Texas
PAUL W. HODES, New Hampshire
CHRISTOPHER S. MURPHY, Connecticut
PETER WELCH, Vermont
BILL FOSTER, Illinois
JACKIE SPEIER, California
STEVE DRIEHAUS, Ohio
------ ------

                      Ron Stroman, Staff Director
                Michael McCarthy, Deputy Staff Director
                      Carla Hultberg, Chief Clerk
                  Larry Brady, Minority Staff Director

Subcommittee on Federal Workforce, Postal Service, and the District of 
                                Columbia

               STEPHEN F. LYNCH, Massachusetts, Chairman
ELEANOR HOLMES NORTON, District of   JASON CHAFFETZ, Utah
    Columbia                         JOHN M. McHUGH, New York
DANNY K. DAVIS, Illinois             MARK E. SOUDER, Indiana
ELIJAH E. CUMMINGS, Maryland         BRIAN P. BILBRAY, California
DENNIS J. KUCINICH, Ohio
WM. LACY CLAY, Missouri
GERALD E. CONNOLLY, Virginia
                     William Miles, Staff Director


                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on July 8, 2009.....................................     1
Text of H.R. 2517................................................    35
Statement of:
    Badgett, M.V. Lee, research director, Williams Institute on 
      Sexual Orientation Law and Public Policy, UCLA School of 
      Law; Gregory A. Franklin, assistant executive officer, 
      Health Benefit Services, California Public Employees' 
      Retirement System; and Carolyn E. Wright, vice president, 
      Corporate Human Resources, American Airlines...............    74
        Badgett, M.V. Lee........................................    74
        Franklin, Gregory A......................................    81
        Wright, Carolyn E........................................    88
    Baldwin, Hon. Tammy, a Representative in Congress from the 
      State of Wisconsin.........................................    45
    Berry, John, Director, U.S. Office of Personnel Management...    51
    Guest, Ambassador (ret.) Michael, former career Foreign 
      Service Officer; Lorilyn Holmes, current Federal employee, 
      reverend, Metropolitan Community Churches; and Frank Page, 
      pastor, First Baptist Church of Taylor, SC, president, 
      Southern Baptist Convention 2006...........................   105
        Guest, Ambassador (ret.) Michael.........................   105
        Holmes, Lorilyn..........................................   112
        Page, Frank..............................................   121
Letters, statements, etc., submitted for the record by:
    Badgett, M.V. Lee, research director, Williams Institute on 
      Sexual Orientation Law and Public Policy, UCLA School of 
      Law, prepared statement of.................................    76
    Baldwin, Hon. Tammy, a Representative in Congress from the 
      State of Wisconsin, prepared statement of..................    48
    Berry, John, Director, U.S. Office of Personnel Management, 
      prepared statement of......................................    53
    Connolly, Hon. Gerald E., a Representative in Congress from 
      the State of Virginia, prepared statement of...............    63
    Cummings, Hon. Elijah E., a Representative in Congress from 
      the State of Maryland, prepared statement of...............   127
    Franklin, Gregory A., assistant executive officer, Health 
      Benefit Services, California Public Employees' Retirement 
      System, prepared statement of..............................    83
    Guest, Ambassador (ret.) Michael, former career Foreign 
      Service Officer, prepared statement of.....................   108
    Holmes, Lorilyn, current Federal employee, reverend, 
      Metropolitan Community Churches, prepared statement of.....   114
    Lynch, Hon. Stephen F., a Representative in Congress from the 
      State of Massachusetts:
        Followup questions and responses.........................    58
        Various prepared statements..............................     4
    Norton, Hon. Eleanor Holmes, a Delegate in Congress from the 
      District of Columbia, prepared statement of................     2
    Wright, Carolyn E., vice president, Corporate Human 
      Resources, American Airlines:
        American Airlines article................................    90
        Prepared statement of....................................    95


  H.R. 2517, DOMESTIC PARTNERSHIP BENEFITS AND OBLIGATIONS ACT OF 2009

                              ----------                              


                        WEDNESDAY, JULY 8, 2009

                  House of Representatives,
Subcommittee on Federal Workforce, Postal Service, 
                      and the District of Columbia,
              Committee on Oversight and Government Reform,
                                                    Washington, DC.
    The subcommittee met, pursuant to notice, at 3:45 p.m., in 
room 2154, Rayburn House Office Building, Hon. Stephen F. Lynch 
(chairman of the subcommittee) presiding.
    Present: Representatives Lynch, Norton, Cummings, Connolly, 
and Chaffetz.
    Staff present: William Miles, staff director; Aisha 
Elkheshin, clerk; Jill Crissman, professional staff member; 
Margaret McDavid and Jill Henderson, detailees; Daniel Zeidman 
and Christina Severin, interns; Dan Blankenburg, minority 
director of outreach and senior advisor; Adam Fromm, minority 
chief clerk and Member liaison; Howard Denis, minority senior 
counsel; Chapin Fay, minority counsel; and Alex Cooper, 
minority professional staff member.
    Mr. Lynch. Good afternoon. The subcommittee hearing will 
begin. I apologize to all of those in attendance. As you know, 
we've been busy on the floor, but we will get right down to 
business now.
    I want to first of all thank Ms. Norton for her attendance 
here while we were on the floor. Unfortunately, she has to now 
chair her own subcommittee chair panel, and she has asked to 
place her statement in the record, which we will do.
    [The prepared statement of Hon. Eleanor Holmes Norton 
follows:]

[GRAPHIC] [TIFF OMITTED] T2628.001

    Mr. Lynch. The Subcommittee on the Federal Workforce, 
Postal Service, and the District of Columbia will now come to 
order.
    I welcome our ranking member, Mr. Chaffetz, and members of 
the subcommittee, the hearing witnesses, and all of those in 
attendance.
    Today's hearing will examine H.R. 2517, the Domestic 
Partnership Benefits and Obligations Act of 2009. H.R. 2517 is 
intended to ensure equal treatment to lesbian and gay Federal 
civilian employees by providing that same-sex partners be 
entitled to the same benefits as a married Federal employee and 
his or her spouse. The purpose of the hearing is to examine the 
merits of this legislation and to discuss its potential 
implementation and costs.
    The Chair, the ranking member and the subcommittee members 
will each have 5 minutes to make opening statements, and all 
Members will have 5 legislative days to submit statements for 
the record.
    At this time, I would like to ask unanimous consent that 
the testimonies from the National Treasury Employees Union, the 
American Federation of Government Employees, the International 
Federation of Professional and Technical Engineers, Human 
Rights Campaign, the Alternative to Marriage Project, and the 
Parents, Families and Friends of Lesbians and Gays be submitted 
for the record.
    Hearing no objection, it is so ordered.
    [The information referred to follows:]

    [GRAPHIC] [TIFF OMITTED] T2628.002
    
    [GRAPHIC] [TIFF OMITTED] T2628.003
    
    [GRAPHIC] [TIFF OMITTED] T2628.004
    
    [GRAPHIC] [TIFF OMITTED] T2628.005
    
    [GRAPHIC] [TIFF OMITTED] T2628.006
    
    [GRAPHIC] [TIFF OMITTED] T2628.007
    
    [GRAPHIC] [TIFF OMITTED] T2628.008
    
    [GRAPHIC] [TIFF OMITTED] T2628.009
    
    [GRAPHIC] [TIFF OMITTED] T2628.010
    
    [GRAPHIC] [TIFF OMITTED] T2628.011
    
    [GRAPHIC] [TIFF OMITTED] T2628.012
    
    [GRAPHIC] [TIFF OMITTED] T2628.013
    
    [GRAPHIC] [TIFF OMITTED] T2628.014
    
    [GRAPHIC] [TIFF OMITTED] T2628.015
    
    [GRAPHIC] [TIFF OMITTED] T2628.016
    
    [GRAPHIC] [TIFF OMITTED] T2628.017
    
    [GRAPHIC] [TIFF OMITTED] T2628.018
    
    [GRAPHIC] [TIFF OMITTED] T2628.019
    
    [GRAPHIC] [TIFF OMITTED] T2628.020
    
    [GRAPHIC] [TIFF OMITTED] T2628.021
    
    [GRAPHIC] [TIFF OMITTED] T2628.022
    
    [GRAPHIC] [TIFF OMITTED] T2628.023
    
    [GRAPHIC] [TIFF OMITTED] T2628.024
    
    [GRAPHIC] [TIFF OMITTED] T2628.025
    
    [GRAPHIC] [TIFF OMITTED] T2628.026
    
    [GRAPHIC] [TIFF OMITTED] T2628.027
    
    [GRAPHIC] [TIFF OMITTED] T2628.028
    
    [GRAPHIC] [TIFF OMITTED] T2628.029
    
    [GRAPHIC] [TIFF OMITTED] T2628.030
    
    [GRAPHIC] [TIFF OMITTED] T2628.031
    
    Mr. Lynch. Good afternoon, ladies and gentlemen. Today, the 
subcommittee convenes to discuss H.R. 2517, which is a measure 
introduced by our own colleague, Representative Tammy Baldwin 
of Wisconsin, designed to provide equal treatment to lesbian 
and gay Federal and civilian employees by providing that same-
sex domestic partners be entitled to the same benefits 
available to a married Federal employee and his or her spouse.
    While today's proceeding has been framed as a legislative 
hearing with the purpose of discussing the merits, composition 
and impact of H.R. 2517, the real issues we are confronting 
today deal with the principles of equality, fairness, and 
inclusion in the workplace, principles that should be 
commonplace for the Federal Government as an employer both in 
theory and in fact.
    Yet today, neither exists as tens of thousands of Federal 
workers and their same-sex partners continue to be denied 
access to employee benefits such as health insurance, overtime, 
and savings, which are customarily offered to employees with 
opposite-sex spouses. In many ways, it's baffling that this 
inequality exists on the Federal level despite the significant 
expansion in the availability of employment-related benefits 
and equal treatment for domestic partners among other public 
and private sector employers.
    We know that nearly 20 States and over 250 localities 
expand benefits to domestic partners of other public employees, 
and in the private sector, we have seen that the number of 
Fortune 500 companies that extend benefits to employees with 
same-sex partners has grown from 46 companies, about 9 percent, 
in 1997 to 286 companies, 57 percent, in 2009.
    Aside from the basic concepts of fairness and 
nondiscrjmination, the need to consider providing domestic 
partners' benefits to Federal employees should also be 
evaluated in light of the potential positive impacts that such 
policies can have on the Federal Government's recruitment and 
retention capabilities, its employee productivity and morale 
and, in some cases, the bottom line, as uninsured domestic 
partners must often rely on other government-sponsored health 
care programs and plans.
    I would again like to thank the gentlelady from Wisconsin, 
Congresswoman Tammy Baldwin, and the 100-plus cosponsors of 
H.R. 2517 for their work, their diligence, and their commitment 
to correcting a longstanding injustice which has resulted in 
some Federal workers not receiving equal pay for equal work.
    I would like to point out recent action taken by the Obama 
administration in providing same-sex partners of Federal 
employees with certain benefits already available to spouses of 
heterosexual employees. Although these fall short of the full 
range of benefits available to married couples, the President's 
actions are nevertheless a step in the right direction, and 
they must be complemented by congressional legislative action, 
which is what brings us to today's consideration of H.R. 2517, 
the Domestic Partnership Benefits Act of 2009.
    [The text of H.R. 2517 follows:]

    [GRAPHIC] [TIFF OMITTED] T2628.073
    
    [GRAPHIC] [TIFF OMITTED] T2628.074
    
    [GRAPHIC] [TIFF OMITTED] T2628.075
    
    [GRAPHIC] [TIFF OMITTED] T2628.076
    
    [GRAPHIC] [TIFF OMITTED] T2628.077
    
    [GRAPHIC] [TIFF OMITTED] T2628.078
    
    [GRAPHIC] [TIFF OMITTED] T2628.079
    
    [GRAPHIC] [TIFF OMITTED] T2628.080
    
    [GRAPHIC] [TIFF OMITTED] T2628.081
    
    Mr. Lynch. I look forward to a healthy and robust 
discussion on all aspects of the measure before us.
    I would like to thank today's witnesses for taking the time 
to be with us today as we explore this important issue.
    I would now like to call upon our witnesses.
    It is the committee's policy that all witnesses are to be 
sworn. I'll ask you to please rise.
    [Witnesses sworn.]
    Mr. Lynch. The record will show that the witnesses have 
answered in the affirmative, and I will now ask our ranking 
member, Mr. Chaffetz, the gentleman from Utah, for a 5-minute 
opening statement.
    Mr. Chaffetz. Thank you, Mr. Chairman. I do appreciate it, 
and I appreciate the work that you've put into this effort, and 
I truly do look forward to listening and learning and 
understanding your perspective.
    I hope this can also be a candid dialog about some of the 
respect and traditions of this country.
    With this, I again want to thank the chairman for holding 
this hearing today in discussing H.R. 2517, the Domestic 
Partnership Benefits and Obligations Act of 2009.
    I would also like to thank Reverend Henry Gaston, Patrick 
Walker, Donald Sadler and other members of the Ministers' 
Conference of D.C. and vicinity for their presence and their 
participation in this ongoing discussion. I look forward to 
hearing from the various witnesses that we will today.
    I, like most people in this country, am in favor of 
preserving traditional marriage. To me, marriage carries a 
direct religious significance in addition to other 
connotations. But perhaps most significant to H.R. 2517 is that 
the term ``marriage'' is also a legal matter, and a court of 
law is involved in the marriage process. What we cannot do with 
this legislation is create laws which are similar for different 
people.
    While we are told that because opposite-sex couples have 
the option to marry, they're provided with similar benefits. 
What I'm concerned about is trying to draw that distinction 
into having an unintended consequence of actually offering and 
creating a separate class or category of people that then would 
obtain or be given rights above and beyond other people who 
don't choose to participate in those lifestyle choices.
    Whether or not a heterosexual couple is dating and living 
together can meet all other standards except for the portion of 
regarding the couple of same-sex status is of concern to me. If 
they can, yet are not afforded the same rights, this bill is 
directly discriminatory against heterosexual couples, and that, 
to me, is one of the unintended consequences that I have a 
serious concern and question, and I'd appreciate if the 
witnesses would address.
    Marriage by another name is of concern to me and I think 
the majority of Americans. At the same time, I want to be 
respectful of individuals and their rights to choose. And I 
would just like to relay a very brief story that's very 
personal to me in my Great Aunt Louise. She has since passed 
away.
    She was happily married for a long time. And yet when she 
passed away, she ended up living with another women. It was not 
necessarily an intimate relationship, it was not necessarily a 
relationship that was other than based on the fact that she had 
an economic need, she had a security need, there was a 
friendship need, and yet I worry that maybe given the 
definitions of where this legislation is trying to go, that if 
she had been a Federal employee, that there would be other 
people that get benefits above and beyond where she had been.
    And I also worry that heterosexual couples who have made a 
decision not to get married would be discriminated against 
along the way.
    I also have concerns about fraud and abuse, the ability to 
enforce these types of things, the costs that will be 
associated with them. I think these are all valid points. At 
the same time, I think we can approach this with a moral 
attitude that says we want to do what's right for people and 
for individuals, but also have a respect for the traditions of 
this country that marriage, defined as a marriage between one 
man and one woman, is something that this country feels 
strongly about. And I do as well.
    So with that, I look forward to hearing, not so much 
speaking. I thank the chairman and look forward to hearing your 
testimony, and I yield back the balance of my time.
    Mr. Lynch. Now I would like to offer 5 minutes for an 
opening statement to the Honorable Tammy Baldwin, the lead 
sponsor of this measure.

 STATEMENT OF HON. TAMMY BALDWIN, A REPRESENTATIVE IN CONGRESS 
                  FROM THE STATE OF WISCONSIN

    Ms. Baldwin. Thank you, Mr. Chairman, and thank you, 
Ranking Member Chaffetz and members of the subcommittee for the 
opportunity to testify today at what is a very historic 
hearing.
    I also want to thank OPM Director John Berry for taking the 
time to testify in support of this legislation and wish to 
thank Ambassador Guest and all of our distinguished panelists 
today for their leadership.
    As my colleagues on this committee know, the Federal 
Government employs more than 1.8 million civilian employees, 
making it the Nation's largest employer. Historically, the 
Federal Government has been a leader in offering important 
benefits to its employees. But today, we are lagging behind, 
and this is particularly true regarding the extension of 
benefits to employees with same-sex partners.
    As it stands, some Federal employees do not receive equal 
pay and benefits for equal contributions. And the government is 
not keeping pace with leading private sector employers in 
recruiting and retaining top talent. Indeed, a large number of 
America's major corporations, as well as State and local 
governments and educational institutions, have extended 
employee benefit programs to cover their employees' domestic 
partners.
    These employers include top American corporations such as 
GE, Chevron, Boeing, Texas Instruments, Lockheed Martin, and 
American Airlines, whom you will hear from later this 
afternoon.
    Under the Domestic Partnership Benefits and Obligation Act, 
a Federal employee and his or her same-sex domestic partner 
would be eligible to participate in Federal retirement 
benefits, life insurance, health benefits, Workers 
Compensation, and family and medical leave benefits to the same 
extent as married employees and their spouses.
    These employees and their domestic partners would likewise 
be subject and would assume the same obligations as applied to 
married employees and their spouses, such as antinepotism rules 
and financial disclosure requirements.
    I want to make very clear that this bill contains strong 
antifraud provisions, requiring employees to file an affidavit 
of eligibility in order to extend benefits to their domestic 
partners. And this is significant, especially considering that 
we do not require married employees to show documentary 
evidence of their marriages when claiming spousal benefits.
    The penalties for fraudulently claiming a domestic 
partnership would be the same as penalties for fraudulent claim 
of marriage. For example, intentional false statements on a 
Federal Employees Health Benefits form is punishable by a fine 
of up to $10,000 and imprisonment up to 5 years.
    Mr. Chairman, I appear before you today both as the lead 
author of this legislation, but also as a lesbian Federal 
employee who has been in a committed relationship with my 
partner, Lauren, for over 13 years. Over the years, Lauren and 
I have examined the differences between my benefits and my 
ability to provide for her compared to the benefits enjoyed by 
my straight, married colleagues in Congress.
    Some quick number crunching would demonstrate that the 
difference between my health benefits and yours just with 
regard to that benefit alone over the course of my 10 years in 
Congress is measured in five figures. This is a significant 
inequality, and heaven forbid anything would happen to me, but 
Lauren would not be eligible to receive the survivor annuity 
from my pension nor health insurance survivor benefits.
    Unlike the spouses of my colleagues, Lauren is also not 
currently subject to any of the obligations related to my 
Federal service. I find this also disturbing.
    All Members of Congress file annual financial disclosures. 
Married Members must file important information about their 
spouse's income, investments, debts, gifts received, etc. 
Surely, the public interest requires that these obligations 
also apply to partners of gay and lesbian office holders.
    Last month, as you mentioned in your opening statement, Mr. 
Chairman, President Obama signed a Presidential Memorandum on 
Federal Benefits and Nondiscrimination which directs the Office 
of Personnel Management and the State Department to extend 
certain benefits to the same-sex partners of Federal employees 
within the confines of existing Federal law. Although the 
memorandum is an important step in providing same-sex partners 
of Federal employees with benefits already available to spouses 
of heterosexual employees, it falls short of providing the full 
range of benefits.
    President Obama recognized and acknowledged that fact when 
he signed the memorandum calling it just a start. He went on to 
say that, as Americans, we are all affected when our promises 
of equality go unfulfilled. President Obama recognized that 
full extension of benefits will require an act of Congress and 
proclaimed his strong support for the legislation that you are 
reviewing today.
    Gentlemen, thank you again for this opportunity to review 
the bill and to testify before the committee.
    Mr. Lynch. Thank you.
    [The prepared statement of Hon. Tammy Baldwin follows:]

    [GRAPHIC] [TIFF OMITTED] T2628.032
    
    [GRAPHIC] [TIFF OMITTED] T2628.033
    
    [GRAPHIC] [TIFF OMITTED] T2628.034
    
    Mr. Lynch. Next, I'd like to introduce Mr. John Berry, 
who's the Director of the U.S. Office of Personnel Management, 
which manages the Federal Government's Civil Service employees. 
Prior to Mr. Berry's appointment, he was the Director of the 
National Fish and Wildlife Foundation and the Director of the 
Smithsonian Zoological Park.
    Mr. Berry, you're recognized for 5 minutes.

  STATEMENT OF JOHN BERRY, DIRECTOR, U.S. OFFICE OF PERSONNEL 
                           MANAGEMENT

    Mr. Berry. Thank you, Mr. Chairman. It's an honor to be 
back with you today. And, Congresswoman Baldwin, thank you for 
your leadership on this issue.
    It is an honor to be here to represent on behalf of the 
President and his administration our strong support for H.R. 
2517. This critical legislation will provide health, life and 
survivor benefits to same-sex domestic partners of Federal 
employees. I applaud Congresswoman Baldwin and the many 
cosponsors of H.R. 2517 for introducing this bill and you, Mr. 
Chairman, and the Members for hosting this hearing today.
    Both the White House and the Office of Personnel Management 
wholeheartedly endorse the passage of this legislation. In my 
written testimony for the record, Mr. Chairman, I've also 
mentioned some technical fixes that we're seeking, and I will 
make all of my staff available to you and the committee staff 
to work with you to provide any support that may be of 
assistance in addressing those corrections.
    At my confirmation hearing, Mr. Chairman, I said two of my 
primary goals as the Director of OPM would be, first, to make 
the Federal Government the country's model employer, and the 
second was to attract the best and the brightest Americans to 
Federal service. The passage of H.R. 2517 is essential to 
accomplishing both of these goals.
    Under current law, the Federal Government cannot offer 
basic benefits like health insurance, life insurance, dental or 
vision insurance to domestic partners of our gay and lesbian 
Federal employees. This policy undermines the Federal 
Government's ability to recruit and retain the Nation's best 
workers.
    Historically, the Federal Government has in many ways been 
a progressive employer. In this case, however, we have fallen 
behind the private sector and 19 States, including Alaska and 
Arizona. Almost 60 percent of the Fortune 500 companies and 83 
percent of the Fortune 100 companies already offer this benefit 
to their same-sex domestic partners.
    These companies include, as Congresswoman Baldwin 
mentioned, American Airlines, who is here today--and I commend 
their leadership in that regard--on the next panel, but also 
companies that you might not expect: Chevron, Food Lion, Archer 
Daniels Midland, Lockheed Martin, many, many others.
    The Federal Government simply does not effectively compete 
with these companies for every talented person; we fail to 
offer comparable job benefits to our employees. And, in fact, 
Mr. Chairman, if I could just add, many of these companies are 
in direct competition with us. We spend quite a bit of money 
doing security clearances on employees, and after they have 
that clearance, that clearance goes with the employee, not with 
the position. And so, essentially, if an employee can be 
recruited away, these are the kinds of tools where we can 
invest a lot of money, and then that employee walks out the 
door to a Lockheed Martin and others who need employees with 
security clearances. We ought not allow that uncompetitive 
edge.
    The President, as Congresswoman Baldwin has already 
mentioned, took an important first step toward addressing these 
shortfalls when he signed the memorandum last month directing 
all Federal agencies to extend benefits to same-sex domestic 
partners of Federal employees to the extent now permitted by 
law. But as the President noted when he issued this, this 
legislation is needed to offer gay and lesbian Federal workers 
true equality and benefits and ensure fairness in the 
workplace.
    I'd also note that the cost of extending these benefits to 
same-sex partners is negligible. Additional premiums for 
providing life, dental and vision insurance to same-sex 
domestic partners will be borne entirely by the gay and lesbian 
employees who enroll their partners in those benefit plans. 
Adding domestic partner health insurance and survivor benefits 
for both Federal workers and retirees would cost approximately 
$56 million in the year 2010. This marginal increase equates to 
about two-tenths of 1 percent of the entire cost to the 
government of our Federal employees health insurance program.
    Simply put, extending benefits to same-sex partners is a 
good, practical, bottom-line business decision, and it allows 
the Federal Government to retain our competitive edge in the 
21st century. This legislation is a valuable business 
opportunity for the Federal Government to enhance our 
recruitment and our retention efforts. And just as important, 
this bill shows that we recognize the value of every American 
and their families and their relationships and are committed to 
the ideal of equal treatment under the law, as our Founders 
envisioned.
    Mr. Chairman, thank you for this opportunity, and I look 
forward to answering any questions the committee might have.
    [The prepared statement of Mr. Berry follows:]

    [GRAPHIC] [TIFF OMITTED] T2628.035
    
    [GRAPHIC] [TIFF OMITTED] T2628.036
    
    [GRAPHIC] [TIFF OMITTED] T2628.037
    
    [GRAPHIC] [TIFF OMITTED] T2628.038
    
    Mr. Lynch. Thank you. Great to have you up here again 
before our committee. You're a frequent witness here, and again 
we appreciate you, especially under today's circumstances.
    I'm going to allow myself 5 minutes for a first round of 
questioning, and the way Congress works, as you both know very 
well, is that we usually have to be in five different places at 
the same time. So as Members come in and leave, I'll afford 
them an ample and full opportunity to ask questions at this 
hearing.
    And because we have so much going on, I'm going to give the 
other members of the panel an opportunity to submit questions 
to you both in writing, and I'll say, in 5 days we'd like to 
have the responses to those questions if they're offered.
    [The information referred to follows:]

    [GRAPHIC] [TIFF OMITTED] T2628.039
    
    [GRAPHIC] [TIFF OMITTED] T2628.040
    
    Mr. Lynch. Ms. Baldwin, currently there are three States 
that recognize same sex marriage. That's Massachusetts, 
Connecticut, and Iowa. Another three States, Vermont, Maine, 
and New Hampshire, will begin to recognize same-sex marriages 
in the next 6 months, based on legislation that has recently 
passed. And while the process in California is still somewhat 
in flux; marriages performed there between June 16, 2008, and 
November 4, 2008, are currently recognized by that State.
    There are, of course, Federal employees in each of those 
States, and some of them may have had same-sex spouses. 
However, the Federal Government cannot recognize these 
marriages because of DOMA, the Defense of Marriage Act, and 
these employees, therefore, are not eligible for the benefits 
provided to Federal employees with opposite-sex spouses.
    My question is, how are those folks going to be affected by 
your legislation? Is H.R. 2517 intended to cover those 
employees as well?
    Ms. Baldwin. The way this would work, the Federal employee 
who is in a same-sex partnership, whether they are married, in 
a marriage recognized at their State level or not, would have 
to file an affidavit of eligibility relating to their domestic 
partnership in order to receive the benefits that are being 
proposed in the bill before you. In terms of having complete 
Federal recognition of the marriages in those States, that 
would require a separate act of Congress, one that I support 
strongly, which would be repeal of title 3 of the Defense of 
Marriage Act, legislation that I expect to be offered by 
colleagues later in this session.
    But the way this legislation would work in practice 
recognizes the fact we have Federal employees around the world, 
in every State of the Union, and that the States will go at 
different paces in terms of recognizing marriages. And so it 
made much more sense to create this mechanism to provide the 
employment fringe benefits, and that's what this bill is 
limited to.
    I would note in addition to your iteration of States that 
have enacted recognition of marriage, two additional 
jurisdictions, New York State and the District of Columbia, 
have approved, either by executive order or by act of the 
Council, to recognize same-sex marriages performed in other 
jurisdictions. So they sort of add to the number of 
jurisdictions that at the State or local level will recognize 
marriage.
    Mr. Lynch. Thank you. And you're right; I think the action 
here in D.C. will come before the committee in some form. I 
know that the City Council has approved that measure as well.
    Director Berry, in his June 17th memorandum, President 
Obama directed you and the Secretary of State to begin the 
process of extending some Federal benefits to qualified same-
sex domestic partners of Federal employees. Can you give us an 
update on how that is going, even though the limited portion 
has gone forward? Do you see any problems in this? How is it 
proceeding?
    Mr. Berry. No, Mr. Chairman. I think that's going along 
well. We are well on schedule to stay within the 90 days that 
the President has established for us to issue and to come out 
with any regulations that would be required.
    We are going to be issuing guidance to the Federal agencies 
to assist them. OPM and State have done a very thorough review 
of our processes and code involved, but we did not have the 
opportunity or the time to do that.
    For example, the General Services Administration is the 
agency charged with relocation benefits, so that a Federal 
employee's move, how that is handled, is through the General 
Services Administration. So, for example, we're asking each 
agency to do a thorough review of their law, and that's what 
the President has asked. Then we'll be collecting that 
information and collating it and getting back to the President 
within 90 days.
    We just had the Chief Human Capital Officers monthly 
meeting yesterday, and that was on our agenda, and so we 
discussed that in full. Everybody is going through and going 
forward with their process. So I think we're right on schedule, 
Mr. Chairman.
    Mr. Lynch. Thank you. Let me followup then.
    Your testimony earlier mentioned the fact that the bill 
would exclude annuitants with same-sex partners from electing 
benefit coverage. Is OPM's position that these individuals 
should be covered by the bill or not?
    Mr. Berry. Yes, sir, that they should be, and in fact, the 
dollar estimate that I gave you actually presumes you would 
make the corrective change to include annuitants.
    Mr. Lynch. Explain that. There is a possible funding offset 
here, right?
    Mr. Berry. Well, in the short term, there is a savings to 
the government because Federal employees who are retiring or 
have recently retired would take a lower payment in exchange 
for having the survivor benefit for their annuitant, for their 
partner, domestic partner, just as it is with the spouse now.
    So, short term, there is a savings. In the long term, there 
would be a slight increase, but that is factored into the 
number that I gave you in my testimony, the $56 million.
    And if I could just check--that is correct. OK.
    Mr. Lynch. So what you're saying is that they don't have 
the option right now to reduce, to seek the lower----
    Mr. Berry. No, sir.
    Mr. Lynch. Like myself, if you want to include your spouse, 
you take a lower benefit, and right now, for gay and lesbian 
employees of the Federal Government, they're all maxing out 
right now. They're all taking the highest option because 
they're forced to do that?
    Mr. Berry. Absolutely.
    Mr. Lynch. And if they take the lower amount, then it will 
cause a savings for the government.
    In his memorandum, President Obama reaffirmed the civil 
service merit system principle that makes it unlawful to 
discriminate against Federal employees on the basis of factors 
unrelated to job performance, including sexual orientation or 
gender identity, and President Obama directed you to issue 
guidance to Federal Agencies requiring compliance with this 
principle.
    How has that proceeded?
    Mr. Berry. Mr. Chairman, we're again right on schedule with 
that. Our counsel's office is working on preparing that, and we 
will meet the 90-day standard that the President has 
established.
    My hope is, we actually have it done in less than 90 days, 
but we will definitely be within the 90-day period the 
President has set up.
    Mr. Lynch. Now, I do know that there was a situation over 
at the Office of Special Counsel, and I want to ask you about 
that.
    As you know, the U.S. Office of Special Counsel is 
responsible for protecting Federal employees from 
discrimination based on sexual orientation and for enforcing 
the cornerstone of the merit system.
    However, the recently departed Special Counsel, who is 
still being investigated by the OPM IG, the Office of Personnel 
Management Inspector General, refused to do so because of 
personal ideological beliefs. Unfortunately, the President has 
been slow to nominate a new Special Counsel, which means 
enforcement of this right continues to be somewhat of a gray 
area, I imagine.
    You have been in touch with the acting leadership of the 
OSC, the Office of Special Counsel, about the issue, and I need 
to know where that sits right now.
    Mr. Berry. Mr. Chairman, I am very honored and extremely 
pleased that my General Counsel now at the Office of Personnel 
Management was a previous Special Counsel and held that 
position during the Clinton administration, and is an 
outstanding attorney and one of the brightest legal minds with 
Federal employees' and retirees' issues in this town. I know 
that she is in close contact with both the Special Counsel's 
Office and the Merit Systems Protection Board.
    They are independent agencies, sir, so OPM does not 
directly affect or control either their budget or their 
staffing, but we do closely coordinate in terms of logic, 
rationale, and actions.
    Right now, the President has made clear in that memorandum 
that it is the law of the land that any nonwork-related 
irrelevant factor is inappropriate for consideration in the 
Federal workplace, and that's going to be the responsibility 
for whoever the Special Counsel that he appoints to enforce as 
the prosecutor, and the Merit Systems Protection Board, as the 
adjudicating agency, to rule on those actions. But the 
President has made clear for all of the management of the 
Federal Government--senior executives, managers included--that 
he expects the law to be enforced.
    Mr. Lynch. Very good.
    I'm not sure if the distinguished gentleman from northern 
Virginia, Mr. Connolly, has any questions at this point. Or do 
you need a minute?
    Mr. Connolly. Thank you, Mr. Chairman.
    I ask unanimous consent that my opening statement be 
entered into the record.
    Mr. Lynch. Without objection, so ordered.
    [The prepared statement of Hon. Gerald E. Connolly 
follows:]

[GRAPHIC] [TIFF OMITTED] T2628.041

    Mr. Connolly. Mr. Chairman, in my district, I represent 
about 56,000 Federal employees and maybe as many retirees and 
lots of Federal contractors; and most of those Federal 
contractors and most of the large employers in my district, in 
fact, already have domestic partner benefits programs because 
they understand how important it is for recruitment and 
retention.
    And I wonder--especially, Mr. Berry, but also you, 
Representative Baldwin--my comment on that whole issue of the 
challenge of recruitment and retention as we move forward, 
we've got a lot of Federal employees ready to retire in the 
baby boom generation. How are we going to replace them and 
retain those we replace them with if, in fact, we don't include 
this as part of the benefits portfolio moving forward?
    Ms. Baldwin. You raise a very, very important point about 
attracting the top talent for government service. And I don't 
have any aggregate data for you, it's hard to pin down, but I 
have some very powerful anecdotal information from my home 
State of Wisconsin, which just last week, by the way, enacted a 
domestic partnership registry and will be shortly extending 
those benefits to State employees.
    I represent a district with a world-class university, the 
University of Wisconsin-Madison, and I have received as a 
Member of Congress panicked calls from chairpersons of 
departments at the medical school saying, Is there anything you 
can do about domestic partnership; we have the chance to land 
one of the most world-respected pediatric oncologists. And 
they're saying if their domestic partner isn't recognized with 
benefits, they're going to accept an offer at another world-
class university.
    We've had a researcher from the engineering school leave 
the State with an NSF grant that totaled more than it would 
have cost to implement the domestic partnership benefits State-
wide in Wisconsin because of the indignity of the unequal 
treatment in employment.
    So I think there are countless anecdotal accounts of why, 
when you can't offer these benefits, you lose top talent.
    Mr. Berry. If I could, I'll just add to and concur with the 
comments of the Congresswoman.
    This is essential in maintaining our competitive edge in 
the 21st century, and the Federal Government spends between 
$3,000 and $15,000, depending upon the complexity of the 
security clearance, on our employees now. As you well pointed 
out, Federal contractors who require those clearances, who are 
desperate to get them and who have a hard time getting them, by 
providing this benefit, essentially the government incurs the 
cost of doing the evaluation on the Federal employee, does the 
initial training of that employee, and all of the expense 
associated with that, and then that employee is sucked away by 
either the Lockheed Martin or General Dynamics or whoever 
provides that benefit, if this is a concern in that case.
    I look at this as a bottom-line business judgment. This is 
about recruiting and retaining, and not only do we need to be 
effective in recruiting across the Nation, but we've got to 
retain the employees, especially those employees with security 
clearances that we're at risk of losing because of this 
uncompetitive situation.
    Mr. Connolly. OK.
    Mr. Chairman, I just want to say I completely concur, and I 
think that's the correct way to frame the issue for the Federal 
Government moving forward: How will we stay competitive in the 
employment market when we are competing with lots of large 
employers who, in fact, provide these benefits?
    So I'm going to be an enthusiastic supporter of H.R. 2517 
and encourage my colleagues to do the same.
    I thank the Chair.
    Mr. Lynch. The Chair now recognizes the gentleman from 
Utah, Mr. Chaffetz, for 5 minutes.
    Mr. Chaffetz. Thank you, Mr. Chairman. I started to chat 
with you on the floor about this, but as I read this bill, 
doesn't it discriminate in terms by giving same-sex couples 
greater Federal benefits than opposite-sex couples who may not 
be married?
    Ms. Baldwin. The option exists for opposite-sex couples to 
marry in every State of the Union, and so it is easily cured if 
they want to seek those benefits for them to enter the 
institution of marriage. Aside from the States that the 
chairman mentioned, that opportunity does not exist in all 
States for same-sex partners, and to the extent that it does 
exist in any States, the Defense of Marriage Act, which is 
currently embodied in Federal law, would prohibit the Federal 
Government from recognizing those marriages in those States 
that do recognize it.
    So, in other words, we have to come up with another 
mechanism in order to offer fringe employment benefits--this is 
what we're talking about in this bill--to the same-sex partners 
of Federal employees.
    Mr. Chaffetz. So a heterosexual couple is not going to get 
the same or a man or woman living together is not going to be 
able to get the same benefits as somebody who is a same-sex 
couple?
    Ms. Baldwin. Should they desire those benefits, they would 
have the option of marrying, and that is a choice open to them 
but not open to the same-sex partners of Federal employees.
    Mr. Chaffetz. Mr. Berry, did you care to comment on that?
    Mr. Berry. I would reinforce what the Congresswoman has 
said. I think it is an effective alternative there, whereas the 
same alternative does not exist for same-sex couples.
    Mr. Chaffetz. What is the determining factor? Intimate 
relationships? I mean, how are we going to define and enforce?
    Mr. Berry. Well, as required in the legislation, it is an 
affidavit, and it has substantial penalties. You know, 
currently our Inspector General at the Office of Personnel 
Management is responsible for enforcing fraud----
    Mr. Chaffetz. So would you want heterosexual couples to 
just fill out an affidavit? Why wouldn't they just do that?
    Mr. Berry. Well, under this case it is defined specifically 
in the legislation as same-sex, but it does--that affidavit 
has--is criminal perjury. It could be--it's enforceable not 
only----
    Mr. Chaffetz. But why can't you just fill out an affidavit: 
We've got a relationship, we plan to live together?
    Ms. Baldwin. As we said earlier, the option is available 
for a heterosexual couple to marry, and then these employment 
benefits would flow automatically on the basis of that marriage 
and that spousal relationship.
    Because of the Defense of Marriage Act, even those same-sex 
couples who are afforded the right to marry in certain States 
would not have those marriages recognized currently at the 
Federal level. And so this is a mechanism that allows people 
like myself who've been in a 13-plus-year relationship to be 
able to provide for my family.
    Mr. Chaffetz. What percentage of people do we think are 
going to participate? The number I've heard is like 1.5 
percent. Do we have any sort of cost estimate here?
    Ms. Baldwin. You will have a witness later who is very 
expert on this topic. Obviously, Director Berry has some data 
already. I haven't seen a percentage, but roughly 30,000 
Federal employees. Is that close to yours?
    Mr. Chaffetz. Do you have any idea what percentage?
    Mr. Berry. Now these are 2003 numbers, Congresswoman, but 
of the 1.8 million retirees, it's estimated that 29 percent, 
5,400, are expected to elect the domestic partnership survivor 
benefit. And that's the basis on which----
    Mr. Chaffetz. Sorry to cut you off. I've got, like, seconds 
to go. I appreciate that you've highlighted the statistic that 
I was after.
    And Mr. Berry, the Office of Personnel Management stated in 
the Senate Homeland Security and Governmental Affairs hearing 
on September 24, 2008--and I recognize how new you are to this 
position, ``that they do not serve as a central clearinghouse 
for all Federal employees and, therefore, would not have the 
records nor resources to collect and maintain such 
affidavits.''
    Do we have any sort of assessment as to how huge the 
bureaucracy is going have to become in order to not only 
maintain but to service those, to enforce those?
    I mean, this creates a Pandora's box of problems it seems 
to me.
    Mr. Berry. No, Congressman, this is actually going to be 
fairly easy to administer. Each of the agencies would just keep 
the affidavit on file. That would be available for 
investigation against fraud by any inspector general. If fraud 
was discovered it would be referable to the U.S. attorney.
    We see no additional cost associated with this, and the 
numbers we're talking about and the experience of the State and 
the private sector in this regard show this out over the past 
10 years that there is not a huge increase, there is not a huge 
cost, there is not a huge paperwork burden. So we do not 
anticipate any of the Federal Government in this, and this 
administration is ready to implement it immediately.
    Mr. Chaffetz. In wrapping up, Mr. Chairman, I'd just 
appreciate if you'd go again to look at that September 24, 
2008, because I feel like the OPM was somehow compelled to have 
a fairly substantive approach to this in saying they are not--
anyway, go back and look at that quote.
    I'd like to better understand why you come to this ``this 
is easy'' conclusion. In 2008, they said, ``No, this will be 
exceptionally difficult.''
    So, with that, I'll yield back the balance of my overtime.
    Mr. Lynch. OK. Let me just followup on some of what the 
ranking member was asking about.
    I have very, very good staff here and I probably know more 
about this than I ever needed to know, but they showed me some 
studies that have been done of all the companies out there in 
the United States--some are international firms--that provide 
domestic benefits, same-sex couples. And they surveyed all 
those companies, and they tried to figure out, what's the take-
up utilization rate among those same-sex couples that could 
have, and it was very, very low.
    The ranking member was not far off; it was around 2 
percent, very small. And I wonder about that in the Federal 
employee context, where you have a situation where someone's 
going to have to file an affidavit, and as the Director 
mentioned, under the pains and penalty of perjury--some very 
serious penalties here, $250,000, 5 years in prison, fairly 
dramatic consequences for fraud.
    And also, if you put the overlay of what you had mentioned 
before about security clearances, you're going to have 
employees here who, I think, might be even more reluctant than 
in the private sector to take up these benefits. They don't 
want to file that affidavit with their employer, with their 
Department.
    Now, my understanding was that the affidavits would be 
filed with OPM. Is that correct, or is it with the individual 
Departments?
    Mr. Berry. As it is now written, I believe Congresswoman 
Baldwin has recommended it be filed with OPM.
    One of the technical amendments we were going to urge, 
because each of the agencies follow their own payroll and 
retirement paperwork, until the person's retired--once they're 
retired, that paperwork would come to us. So, for existing 
annuitants, we would cover that; but otherwise, for active 
employees, it would be with each Bureau and Department.
    That's what we would recommend as a technical amendment to 
improve the legislation.
    Mr. Lynch. OK. I don't believe that's a hostile amendment, 
is it?
    Ms. Baldwin. No, sir. That would be very welcome.
    Mr. Lynch. OK. Let me ask you something else.
    Earlier in your testimony, Director Berry, you said 
something about retirees utilizing same-sex benefits. However, 
my reading of the bill, this will just be for active employees, 
and so retirees would not be eligible. Am I misreading that?
    Ms. Baldwin. You are not misreading that, but as Director 
Berry indicated, in their review of the legislation, OPM has 
come up with a number of technical recommendations, and that 
would be one. And as you heard earlier, it has some near-term 
offsetting effects in terms of the cost of the bill. So it 
would be something that we should certainly consider.
    Mr. Berry. Mr. Chairman, as a technical amendment, we would 
recommend the inclusion of existing annuitants and allowing 
that program for them. And so we would be happy to work with 
your staff to achieve that.
    Mr. Lynch. That's something that's new to me right now, but 
that's why we have hearings.
    Let me just say this. I know there has been a doctrinal 
priority to try to treat active employees and retirees the 
same, and that's been something that the Federal Government has 
tried to do as an employer generally. I have to chew on that 
for a little bit and figure out what that really means. It's 
new. It's obviously just come up. But we'll try to work with 
you again.
    I'm sure I've exhausted my 5 minutes.
    Mr. Connolly, you're recognized for 5 minutes.
    Mr. Connolly. Well, I wanted to ask Mr. Berry, from his 
point of view, given his responsibilities, what kind of 
feedback are you getting from Federal agency heads, in terms of 
the value of this as a potential tool for recruitment and 
retention?
    Mr. Berry. There's no question, Mr. Connolly, this is a 
very valuable tool. As has been noted in the testimony, 83 
percent of the Fortune 100 companies in our country today 
provide this. Those companies are not doing this out of social 
work or charitable purposes. They are doing it because it is a 
valuable recruitment and retention tool in their personnel 
portfolio.
    So they are not motivated here on some social agenda. They 
are not restricted by some of the discussion that the Federal 
Government is encumbered by. They're making this as a bottom-
line business assessment and judgment, and that is specifically 
the position.
    As I talk with Cabinet Secretaries, the President, and the 
White House staff, it is clear, this will be a helpful tool. It 
is not going to answer all the problems of the Federal 
Government; we have many other issues to deal with. As you 
know, hiring reform is going to be one. I was talking with 
Congressman Chaffetz about our efforts to increase our hiring 
of veterans. We have many efforts we're going to be 
undertaking.
    But this, again, is an important tool that is going to help 
us maintain our cutting edge with the private sector here in 
the 21st century.
    Mr. Connolly. And I would just observe in closing--because 
we have to vote, I know, Mr. Chairman--I find it odd that 
somebody would even suggest inferentially that this benefit 
provision, could itself constitute discrimination against folks 
in opposite-sex relationships when, of course, the screaming 
contradiction of that question is that marriage is available to 
people in that situation, and it is not in all but a handful of 
States to those in same-sex partnerships.
    And so that's why you have to, as Representative Baldwin 
indicated, look at other ways of trying to address the issue of 
fairness in the provision of benefits. And I certainly look 
forward to expanding that conversation with Mr. Chaffetz and 
his colleagues in the weeks and months coming.
    I thank the Chair.
    Mr. Lynch. I thank the gentleman.
    All right. As you know, we have votes, and I'm going to 
have to allow the witnesses to go up and vote.
    Here's what I'd like to do. We'll go and do votes. I don't 
want to dismiss this panel. When we come back, I'm going to 
maybe have a couple more questions, and then I'll give you 
each, say, 3 minutes because we have not exhausted all the 
questions that could arise on this issue; and I'll ask you to 
just try to fill in those gaps that we may have missed in our 
questioning.
    And then I'll pull the next panel, OK?
    Thank you. So we're in recess. They tell me it's just one 
vote, so we might be back in 20 minutes. OK.
    [Recess.]
    Mr. Lynch. Good afternoon and welcome back. As I had said 
before the break, I did want to offer one more question.
    Just in terms of eligibility, I understand in reading the 
bill, that Ms. Baldwin has presented, it defines same-sex 
beneficiaries as being, ``unmarried,'' and of course, now with 
the situation in Massachusetts and Connecticut and a bunch of 
places where, at least according to those States and between 
some States and the District of Columbia, those folks are now 
married. So it would appear that it might be the unintended 
consequence of this legislation that same-sex couples that are 
married, now would not be helped, but would be hurt by this 
bill.
    Now, I've gone over it with our own counsel. They have 
instructed me that since the Federal Government does not at 
this point recognize marriages other than traditional 
marriages--one man, one woman--that from the Federal 
Government's standpoint everybody outside that group is 
unmarried, period.
    So it's really not a conflict is what it's saying. But to 
get it on the record, I just wanted to ask the Director and the 
lead sponsor of this bill whether it is your understanding that 
is the case as well.
    Mr. Berry. Mr. Chairman, thank you.
    It is my understanding that what you have just described is 
the situation. But to be extra sure, because obviously in light 
of this, our counsel would like to work with yours and the 
counsels from the Department of Justice to make sure that we 
resolve this issue so that we do not have any unfavorable 
treatment for either Federal employees or retirees in those 
States that do use that term as an unintended consequence.
    So we would be happy to work with the author and the 
committee to make sure that we draft this correctly to ensure 
equal treatment in those cases.
    Mr. Lynch. OK.
    Ms. Baldwin.
    Ms. Baldwin. I would associate myself with the comments of 
Director Berry with regard to this point.
    There's certainly a strong reason why that language 
originated in the bill in earlier iterations before any State 
had recognized same-sex marriages. I think your legal counsel's 
analysis is accurate, but I think additional clarity, because 
of the progress being made in a number of States, is warranted.
    Mr. Lynch. OK. That satisfies me.
    In that respect, I now yield 5 minutes to the gentleman 
from Utah, Mr. Chaffetz.
    Mr. Chaffetz. Thank you, Mr. Chairman.
    I have a growing concern about how we can possibly define 
the terms and enforce the terms that constitute who would be 
eligible and who wouldn't be eligible. I don't know how in the 
world it can be enforced. I don't have any idea or clue how it 
can possibly be defined. It certainly hasn't been defined in 
the legislation from my perspective.
    Would you care to address that.
    Ms. Baldwin. Well, I would hope that the fact that 
literally thousands of private sector corporations and State 
and local units of government have seen fit to enact domestic 
partnership registries and offer employment benefits would give 
some comfort to the gentleman in terms that it can be managed, 
and it is being managed across this country very well.
    We lag behind in the fact that the Federal Government does 
not offer these employment benefits, but I think that the 
legislation very carefully sets forth the eligibility 
requirements.
    The affidavit is an additional protection against fraud. 
No, we don't want people defrauding the Federal Government 
either to purport they're in a marriage that they're not in or 
to purport they're in a domestic partnership that they're not 
in. And so these provisions have been specifically added as 
strong fraud prevention language.
    But I would say you should take comfort in the fact that 
this is done across the country in other jurisdictions of 
government as well as the private sector, and it's working very 
well.
    Mr. Chaffetz. Mr. Berry, one of the key or prime things 
that you cite as a reason to do this is the need to attract and 
retain employees. Where in the Federal Government do we have a 
lack of applicants? Because I guarantee I can get some 
applicants to probably show up tomorrow. Where are we lacking 
in terms of being able to recruit people?
    Mr. Berry. Congressman, this is a case you would have to 
look at each specific case.
    Mr. Chaffetz. Can you name one where we don't have----
    Mr. Berry. Oh, absolutely. Right now, we give direct hiring 
authority for veterinarians, doctors, nurses, engineers. The 
list goes on and on because we cannot effectively recruit in 
those professions, and so right now we don't even require 
competition. If a Federal agency finds a nurse that walked in 
the door and proved she is qualified, they can hire her in the 
morning because we can't find them. We can't fill those jobs, 
and these positions are significant. They're one of our 
greatest challenges, and so in each of these areas we are 
attempting to go out there with sharp elbows and compete with 
private sector, university settings, State governments, and 
local governments, so that we can provide critical services.
    You know, veterinarians at the Food and Drug Administration 
right now, we do not have enough to do the food safety 
management that we need to supply for the country. These are 
tough challenges we face as the employer for the country, and 
going to allow us--I'm not saying it's going to solve that 
problem entirely, but for the same-sex partner, the person who 
has a partner who is now working for Archer Daniels Midland and 
has domestic partner benefits, and who is a veterinarian, I in 
no way am going to have that person be able to say, they're 
going to move, relocate, and lose the health insurance for 
their partner if that's their condition of Federal employment. 
This is going to allow me now to attract that person, or at 
least, be competitive.
    So I think it's going to be a very powerful tool for us. 
It's not going to solve all the problems. I'm not portraying 
this is a panacea, but it's going to be one important tool in 
the tool belt.
    Mr. Chaffetz. I guess I would be very curious to see a list 
of where you have some gaping holes. I think the American 
people--I find the overall sweeping generalization--and, 
granted, we have limited time here. To say that we have these 
big, gaping holes when our unemployment is north of 9.5 
percent, I think if we're not sharing that with the American 
people, we ought to be. I don't see it. I'd love to see that 
list.
    Mr. Chairman, as we wrap up this panel here, I know we have 
others waiting, I appreciate your passion and commitment to 
this.
    I believe that in the traditional definition of marriage, 
as between one man and one woman, there are benefits and there 
are things that we do as a people to encourage that 
relationship. And I stand proud on that, and I don't think we 
should try to create something that is under a different name. 
That's my own personal opinion. I know your opinion would 
differ, and that's what makes this body so great.
    I hope, Mr. Chairman, as this moves forward, that we have 
proper time to have this debate in greater numbers and that 
there isn't some procedural thing that would get in the way of 
us being able to vote in a broad sense as this moves forward.
    So, again, I thank you both.
    I've gone over my time, and thank you, Mr. Chairman.
    Mr. Lynch. I welcome the gentleman's remarks. I know we 
have not, as I said before, exhausted the full range of 
questions that might be offered, and with our continual 
interruptions on the floor, it's made it even more difficult.
    What I'd like to do, though, is offer each of you 3 minutes 
if there are areas in this bill that you would like to amplify 
or issues that you feel have not been appropriately addressed, 
I give you an opportunity to do that now in closing.
    Ms. Baldwin, you're recognized for 3 minutes.
    Ms. Baldwin. Thank you, Mr. Chairman, for this very 
generous allocation of time to review this bill with the 
committee and exchange back and forth with questions. I just 
want to summarize with a couple of points.
    In many ways, I regard this as an issue of equal 
compensation both in pay and benefits, but predominantly, we're 
looking at benefits for equal work where you have gay or 
lesbian employees of the Federal Government who are in 
committed, lifelong relationships. They have families they wish 
to protect, and they are not receiving the tools to be able to 
provide those protections, be it health care, survivor benefits 
that we've talked about, family and medical leave.
    You'll hear later from Ambassador Guest about the 
employment benefits related to those we ask to serve our 
country overseas that are very important if you want to be able 
to protect your family. And so, I regard this very much as an 
issue of equal compensation for equal work where we have 
identified a glaring discrepancy based merely on sexual 
orientation.
    I want to respond briefly to the ranking member's comments 
relating to marriage versus the very limited scope of this bill 
relating to fringe benefits.
    Marriage, which we have long looked to the States to define 
and regulate, is an aggregation of literally hundreds--in many 
States, thousands--of benefits and obligations that inure to 
those who are able to enter the institution of marriage. And so 
I, in no way, view this measure, as limited as it is, as a way 
to replicate marriage by another name.
    And if you look even to the Federal level, I think it was 
in either the late 1980's or early 1990's that a request for an 
analysis of how many times the Federal code references spouse, 
husband, wife, marriage--again, thousands of references, lots 
of benefits and lots of obligations. This in no way replicates 
that.
    While I am a supporter of equal marriage rights, that is 
not what we are here today to speak with you about. This is 
much more a matter of equal pay and equal compensation and 
benefits for those who arrive at the workplace and work at 
their jobs diligently and deserve to have equal respect of 
their employers.
    Mr. Lynch. Thank you.
    Mr. Berry for 3 minutes.
    Mr. Berry. Mr. Chairman, thank you so much for the hearing 
today, for your opportunity; and Congressman Chaffetz, for your 
engagement and involvement. We appreciate your attention and 
the courtesies that you have extended throughout the day.
    I would just make a couple of quick points, just 
underscoring the President's support for fairness across the 
Federal Government for treating all employees equally. Also, as 
the Director of OPM, for supporting it as an opportunity to 
maintain our competitive edge.
    Congressman, you're right, with the economy now, for many 
Federal positions, we have an overabundance of applicants, but 
we do face shortages in some critical areas that are very 
important, and this will be one tool that will allow us to 
maintain that.
    And the economy isn't going to remain down forever, and as 
we move forward in the 21st century. We have very complicated 
jobs in the Federal Government, and they're essential to 
protect the life, health and safety of our citizens. And it is 
essential that we be able to both recruit and retain once we've 
gotten and made a substantial investment in the best and the 
brightest, and this will be one of those tools, just like the 
rest of our health benefits packages are.
    I'd also just like to mention, there is nothing in this 
legislation that requires the repeal or even the amendment of 
the Defense of Marriage Act. This is not an attempt to seek 
that. Though the President has made clear he supports the 
repeal of that legislation, it is not required for this 
legislation. And I think it's important to remember that as 
we're having this debate.
    This is a debate about health benefits, life insurance, 
vision, and dental. It's about a benefit package that we're 
just trying to provide our employees fairly across the board. 
It is not an attempt to redefine marriage. It is not an attempt 
to overwhelm the Defense of Marriage Act. That is not required.
    I would have to check this out, but one of the things in 
terms of your questioning, Mr. Chaffetz, about whether we 
extend this benefit to heterosexual couples actually might 
entangle us in DOMA, whereas this legislation does not. And so 
I think we would have to be careful of that because, as we 
define or redefine those terms in that way, it might more 
directly engage DOMA. This legislation now doesn't.
    And so I think we're best in keeping it that way and 
keeping it as a straightforward health benefit, employee 
vision, and dental, and move forward with this as a competitive 
tool for the 21st century.
    So, with that, Mr. Chairman, I thank you very much and look 
forward to working with you on the many technical amendments 
we've discussed today. And thank you again for the courtesy 
today.
    Mr. Lynch. Thank you both, Director Berry, Representative 
Baldwin. We appreciate your willingness to come before the 
committee and help us with our work. We bid you have a good 
day, and we want to welcome the second panel. Thank you.
    Welcome. We will continue with this hearing. It is the 
custom of this subcommittee to swear witnesses who will offer 
testimony. Could I please ask you to rise and raise your right 
hands.
    [Witnesses sworn.]
    Mr. Lynch. Let the record show that all of the witnesses 
have answered in the affirmative.
    I will offer a brief introduction of each of our witnesses.
    Ms. M.V. Lee Badgett is currently the research director of 
the Williams Institute for Sexual Orientation Law and Public 
Policy at UCLA. Her research focuses on family policy issues 
and on labor market discrimination based on sexual orientation, 
race and gender. Ms. Badgett is also the director of the Center 
of Public Policy and Administration at the University of 
Massachusetts-Amherst, where she also serves as a professor of 
economics.
    Mr. Greg Franklin is the current assistant executive 
officer of Health Benefit Services for the California Public 
Employees' Retirement System [CalPERS]. In this capacity, Mr. 
Franklin is responsible for purchasing health care for nearly 
1.3 million CalPERS members at an annual cost of more than $5.5 
billion.
    Mr. Franklin is also responsible for the day-to-day 
operations of the health benefits branch where he oversees such 
offices as the Office of Health Plan Administration, the Office 
of Employer and Member Health Services, the Office of Health 
Policy and Program Support and the Division of Operation and 
Infrastructure Support.
    Ms. Carolyn E. Wright has served as the vice president of 
Corporate Human Resources for American Airlines since May 2001. 
Ms. Wright's responsibilities include strategy development and 
program design in the areas of compensation, benefits, 
retirement, leadership development, Workers Comp and 
recruiting. Previously, Ms. Wright held the position of senior 
vice president of Customer Services at American Eagle Airlines.
    As the procedure within this committee, each of the 
witnesses will have 5 minutes. I didn't explain it to the last 
two witnesses because they're here so often. The box in front 
of you will show a green light during the time which you're 
invited to offer your 5 minutes of opening statement. When it 
turns yellow, you've got 1 minute to sum up, and if it turns 
red, your time for statement has expired.
    So, Ms. Badgett, I'd like to welcome you to offer your 
opening statements for 5 minutes.

  STATEMENTS OF M.V. LEE BADGETT, RESEARCH DIRECTOR, WILLIAMS 
  INSTITUTE ON SEXUAL ORIENTATION LAW AND PUBLIC POLICY, UCLA 
    SCHOOL OF LAW; GREGORY A. FRANKLIN, ASSISTANT EXECUTIVE 
OFFICER, HEALTH BENEFIT SERVICES, CALIFORNIA PUBLIC EMPLOYEES' 
   RETIREMENT SYSTEM; AND CAROLYN E. WRIGHT, VICE PRESIDENT, 
          CORPORATE HUMAN RESOURCES, AMERICAN AIRLINES

                 STATEMENT OF M.V. LEE BADGETT

    Ms. Badgett. Thank you. Good afternoon, Chairman Lynch. As 
an economist who has studied these issues for many years, I'm 
grateful for the opportunity to speak today about H.R. 2517.
    Today, I'd like to make four points about the need for the 
bill and the budgetary implications of the bill.
    First, you've already heard from the other witnesses, and 
I'll just confirm from an economics perspective, that by 
equalizing the treatment of same-sex partners of Federal 
employees, this bill would put the Federal Government in the 
mainstream of modern compensation practices. The shift has been 
dramatic, it's been rapid and it will only continue. There will 
be more and more employers who will offer these benefits, 
putting the Federal Government farther and farther behind if 
this bill is not enacted. I've studied the experiences in many 
of these employers, and they have reported that the 
implementation of domestic partner benefits has been quite easy 
and the cost quite manageable.
    The second point that I want to make is that the employees 
who receive these benefits gain a great deal in terms of 
security. They sign up for them to protect their family's 
health and well-being. At least some of those family members 
right now are quite likely to lack health insurance. A recent 
study that I did found that 20 percent of people who are in 
same-sex couples are uninsured, a rate that is almost double 
that of married employees, and it's significantly higher than 
the average in the United States; and this greater 
vulnerability is, quite clearly, at least partly a result of 
the employer's failure to offer domestic partner benefits. So 
many Federal employees now may have family members who are not 
covered by insurance at all.
    Third, the cost of providing benefits to domestic partners 
is small and manageable. Last year, I coauthored an independent 
study that estimated the cost of extending benefits to the more 
than 34,000 same-sex partners of Federal employees. We 
identified that number from the American CommunitySurvey. We 
estimated that providing benefits for nonpostal employees would 
cost the Federal budget approximately $41 million in the first 
year and $675 million over 10 years. These are cost estimates 
that are quite similar to those of Director Berry.
    The majority of these costs are concentrated in the area of 
employee health benefits and retiree health benefits. We 
predicted enrollment in health care plans would increase, but 
by a very small percentage, approximately 0.55 percent, which 
works out to being in our estimate roughly 14,000 employees.
    As a result of this increase in enrollment, additional 
health care benefits for the same-sex partners of Federal 
employees--and here I'll just go ahead and include postal 
service employees as well--and their kids would cost about $60 
million in the first year. That's a very small percentage 
increase, about 0.4 percent increase in health care spending 
for Federal employees last year; and that increase is very much 
in line with the experience of employers in the private sector 
and the States and cities that have offered these benefits.
    As you discussed in the last panel, there's some question 
about retirees. We estimated--we assumed that Federal 
employees, as they retire in the future, would be able to cover 
their partners in the future as retirees. So we estimate that 
the cost of health care benefits for those partners could 
increase by $127 million over 10 years.
    The retirement benefits themselves would have a very small 
change in cost to the government. In fact, as was also 
mentioned in the last panel, there would be a reduction in 
annuity payments over the short term as Federal employees offer 
survivor benefits for their same-sex partners, and that would 
save approximately $108 million over 10 years. And I'll just 
note that the findings of our study are not only in line with 
the OPM figures, but also they're very similar to the 
Congressional Budget Office's 2003 analysis of a similar bill.
    The cost for all the other benefits are minimal, and 
although they're not expensive, the ability to take family 
medical leave or to enroll a partner in life insurance or long 
term care insurance or to receive death and disability benefits 
are quite important to those Federal employees who will take 
advantage of those and can make a big difference in the lives 
of their families.
    My last point is that several factors will help offset some 
of these costs, although some of them are hard to measure 
precisely. One factor that I don't think has been mentioned yet 
is that employees of same-sex partners will need to pay 
additional Federal taxes on the imputed value of the benefits 
they receive as employees if this bill were to pass. That would 
offset some of the costs of the bill. Approximately $118 
million in revenue over 10 years would be added back in.
    And then the second factor, which you've heard a little bit 
about is that the Federal Government is likely to see lower 
turnover amongst its employees since the Federal employees who 
have partners are less likely to seek employment elsewhere. 
Lower turnover means lower cost of recruiting, hiring and 
training new employees, and there are several studies that show 
that domestic partner benefits do significantly reduce the 
likelihood that employees will look for jobs in other places. 
So I think this is an effect that is very real. It's hard to 
measure; it's hard to actually calculate the cost impact, but 
it's real.
    So putting these pieces together suggests that some of 
these gains will offset the very small cost of offering equal 
benefits to same-sex partners. The experience of thousands of 
employers offering these benefits in the United States today, 
as well as existing research, support my conclusion that the 
Federal Government can adopt and implement this new policy 
easily and affordably.
    Thank you.
    Mr. Lynch. Thank you.
    [The prepared statement of Ms. Badgett follows:]

    [GRAPHIC] [TIFF OMITTED] T2628.042
    
    [GRAPHIC] [TIFF OMITTED] T2628.043
    
    [GRAPHIC] [TIFF OMITTED] T2628.044
    
    [GRAPHIC] [TIFF OMITTED] T2628.045
    
    [GRAPHIC] [TIFF OMITTED] T2628.046
    
    Mr. Lynch. Mr. Franklin, you're now recognized for 5 
minutes.

                STATEMENT OF GREGORY A. FRANKLIN

    Mr. Franklin. Good afternoon, Chairman Lynch and Ranking 
Member Chaffetz. I'm Gregory Franklin. I'm the assistant 
executive officer for the Health Benefits Services branch of 
the California Public Employees' Retirement System [CalPERS].
    CalPERS is the largest public employee pension fund in the 
United States, with assets of approximately $182 billion. We 
administer retirement and health benefits for more than 1.6 
million active and retired California public employees and 
their families on behalf of the 2,600 California public 
employers. As of June 30, 2008, we were paying more than $10 
billion annually in benefits to 476,000 retirees and 
beneficiaries.
    CalPERS also administers a health benefits program that 
covers nearly 1.3 million members, the employees and retirees 
of the State of California, contracting local public agencies, 
and special districts. We're the second largest purchaser of 
employee health benefits in the Nation after the Federal 
Government. We're the largest purchaser of employee health 
benefits in California.
    In 2000, a new State law, Assembly Bill 26, went into 
effect that established a domestic partner registry at the 
California Secretary of State Office. Under the law, partners 
of opposite sex, if one of whom was over the age of 62, and 
partners of same sex may register for domestic partnership. 
Registration as domestic partners, however, does not confer any 
rights upon the partners unless specifically provided by law.
    Assembly Bill 26 also amended California's Public Employee 
Medical and Hospital Care Act, which is administered by 
CalPERS. To allow--to allow covered employers to offer health 
benefits to domestic partners of its employees retirees as an 
option, the State of California began health benefits to 
domestic partners in January 2000. Some public agencies also 
began offering health benefits to domestic partners as well.
    In 2005, Assembly Bill 105, the California Domestic 
Partners Rights and Responsibilities Act, became law. The law, 
which was supported by the CalPERS board administration, 
confers spousal rights on domestic partners, giving them 
statutory rights to certain employee benefits, as well as 
entitlement to continued health insurance coverage after the 
death of a CalPERS member. The essence of Assembly Bill 205 put 
domestic partners on equal footing with spouses relative to 
employee benefits under California law.
    Assembly Bill 205 mandated the provision of health 
insurance coverage for domestic partners in the same manner as 
provided to spouses, removing the issue from collective 
bargaining process at the State level and eliminating local 
agency discretion.
    Of note is that the CalPERS long-term care insurance 
program was exempt from this Assembly Bill 205 because the 
program is governed by the U.S. Internal Revenue Code as a tax 
exempt governmental plan.
    And the Federal Government does not recognize domestic 
partnerships. Allowing domestic partners to enroll in the long-
term care plan would, in effect, be enrolling persons who are 
not eligible under Federal tax law and therefore threaten the 
tax-exempt status of the plan.
    In a related issue, the premiums for eligible domestic 
partners who are enrolled in a regular CalPERS health benefits 
program must be treated as taxable income for Federal tax 
purposes--again, due to the Federal Government not recognizing 
domestic partnerships for government programs.
    Premiums of spouses are tax deductible. Under Assembly bill 
205, CalPERS treats partners just like--it treats domestic 
partners just like spouses with respect to eligibility for 
CalPERS retirement benefits.
    The most significant change relative to retirement benefits 
is that surviving registered domestic partners of deceased 
CalPERS members and retirees are now entitled to the same death 
benefit allowances that were previously only available to 
surviving spouses.
    Assembly bill 205 also gives a domestic partner an 
entitlement to community property interest of a CalPERS 
member's benefits upon dissolution of a domestic partnership.
    The most significant implementation issue related to what 
types of domestic partners are eligible for benefits under 
Assembly bill 205.
    In California, a legal domestic partnership is one that is 
formally registered in the Domestic Partner Registry 
administered by the California Secretary of State's Office. But 
the issue of domestic partnership formed outside of California 
was less clear.
    As of July 1, 2009, CalPERS covered 3,449 members who have 
3,620 domestic partners and dependents enrolled in the health 
benefits program. For 2009, the total premiums for covered 
domestic partners is estimated at $19.5 million, which 
represents 0.33 percent of our total $5.8 billion in premiums 
projected to be paid in 2009. Unfortunately, we cannot provide 
similar statistics for our retirement benefits program.
    Overall, we do not believe that providing retirement and 
health benefits to domestic partners of CalPERS members produce 
significant burdens on staff workload or administrative 
budgets. I hope this information provides you with a better 
understanding of our experience incorporating domestic 
partners' benefits into our retirement and health benefits 
program.
    I'm happy to answer any questions you may have.
    [The prepared statement of Mr. Franklin follows:]

    [GRAPHIC] [TIFF OMITTED] T2628.047
    
    [GRAPHIC] [TIFF OMITTED] T2628.048
    
    [GRAPHIC] [TIFF OMITTED] T2628.049
    
    [GRAPHIC] [TIFF OMITTED] T2628.050
    
    [GRAPHIC] [TIFF OMITTED] T2628.051
    
    Mr. Lynch. Mrs. Wright.

                 STATEMENT OF CAROLYN E. WRIGHT

    Ms. Wright. Chairman Lynch, members of the subcommittee, my 
name is Carol Wright, and I'm the vice president of Corporate 
Human Resources for American Airlines based in Fort Worth, TX.
    Speaking for the more than 80,000 employees for American 
Airlines and our partners at American Eagle, we are honored to 
be here today to address relevant issues in your consideration 
of H.R. 2517, the Domestic Partnership Benefits and Obligations 
Act of 2009.
    As you can appreciate, we are by no means experts on the 
Federal work force or the specific human resource benefit 
questions you are raising with this legislation. We have not 
had the opportunity to study it in detail. Nor do I believe we 
can competently offer recommendations on all aspects of the 
bill. Instead, you have encouraged us to share with you our 
experience as a corporate leader in the private sector and to 
share our views on best employment practices and inclusion, 
which speaks to the overall goals of this legislation.
    As you may be aware, American, American Eagle and the 
AmericanConnections airlines serve 250 cities and 40 countries 
with, on average, more than 3,400 daily flights. As a global 
airline, American recognizes the importance of the 
relationships among its customers, employees, business partners 
and suppliers and the communities that we serve.
    We must embrace the diversity that exists within each of 
our key constituencies and operate in an inclusive manner for 
all of these groups to thrive. As a company that bears the name 
``American,'' we also know that much is expected of us and we 
hold ourselves to a high standard. We know that promoting 
diversity is a journey, and America is committed to making 
further progress as we weave it into the very fabric of our 
company.
    Beginning in 1993, we were the first major airline to 
include sexual orientation in our equal employment opportunity 
policy, and we added gender identity in 1999. In 1994, we also 
recognized our lesbian, gay, bisexual, and transgender 
employees as our first official employee resource group. Last 
month, we celebrated its 15th anniversary.
    Building on these first steps in the late 1990's, we 
decided to examine benefits parity for all of our employees, 
and to identify any gaps in our soft and hard benefits, 
including health and other insurance coverage, travel companion 
privileges, and other options that customarily were available 
to legally married heterosexual spouses.
    Philosophically, we have always tried to recognize 
employees as individuals with their own family needs, talents, 
and ambitions. All deserve equal respect and acceptance for the 
true worth and unique experiences and skills that they bring to 
their jobs.
    We determined that treating the employees in committed 
relationships with same-sex partners as a family rather than as 
single people was consistent with that philosophy. So in 2000, 
we became the first major airline to offer benefits to the 
same-sex partners of our employees, as we had long done for 
married spouses.
    I'm not able to disclose the proprietary financial details 
about the costs or fiscal implications of our policies, but I 
can readily report that the actual impact on overall human 
resource budget is proportionately modest and manageable.
    So what are the upsides? We see a stronger work force in 
every sense. We are instilling a more enduring sense of loyalty 
and commitment and helping to motivate our LGBT employees to be 
all they can be and to bring their whole identity to work. We 
never saw this as a special case or privilege, but simply doing 
the right thing in a business setting that underscores 
fairness, equity, and inclusion.
    What are the implications for the Federal Government and 
your extraordinarily diverse work force? We cannot predict with 
any certainty the future market conditions for employment and 
worker retention, but we can report that America's top 
corporations are showing the way on best practices.
    According to research from the Human Rights Campaign, 
roughly 80 percent of the Fortune 100 now offer equal same-sex 
partner benefits, and the same can be said of the 57 percent of 
the Fortune 500. Last year in a national survey commissioned by 
Out and Equal Workplace Advocates, and conducted by Harris 
Interactive with Witeck-Combs Communications, 64 percent of all 
American adults agreed that job benefits should be extended 
equally to committed same-sex partners that are available to 
legally married spouses.
    Mr. Chairman, in closing, I also have a recently updated 
document entitled, ``Diversity and Inclusion: A Way of Life at 
American Airlines'' that I would like to submit for the 
official record.
    Mr. Lynch. Without objection.
    [The information referred to follows:]

    [GRAPHIC] [TIFF OMITTED] T2628.052
    
    [GRAPHIC] [TIFF OMITTED] T2628.053
    
    [GRAPHIC] [TIFF OMITTED] T2628.054
    
    [GRAPHIC] [TIFF OMITTED] T2628.055
    
    Ms. Wright. Thank you for inviting American Airlines to be 
here today to report on our past decade experience on this 
topic. We continue to work hard and sustain and build our 
commitment to diversity leadership and hope our testimony 
reflects some of the lessons we have learned and are proud to 
share with you.
    Thank you. I will be happy to answer any questions.
    Mr. Lynch. Thank you.
    [The prepared statement of Ms. Wright follows:]

    [GRAPHIC] [TIFF OMITTED] T2628.056
    
    [GRAPHIC] [TIFF OMITTED] T2628.057
    
    [GRAPHIC] [TIFF OMITTED] T2628.058
    
    Mr. Lynch. I'm going to yield myself 5 minutes for some 
questions.
    You are each experts in your own right, but, Ms. Badgett, 
you have the unique, I think, perspective of having conducted 
fairly extensive studies in the area of Federal employee 
employment practices and Federal benefits. And so, having had 
an opportunity to look at this from a unique angle, I think 
that could be beneficial to the committee.
    Have you thought about what the discretionary spending and 
nondiscretionary spending ramifications would be on the Federal 
Government if we were to extend these benefits? I know you are 
an economist and an accomplished one, but have you thought 
about it from that perspective and could you just offer your 
thoughts on that?
    Ms. Badgett. Do you mean distinguishing between spending in 
those different categories or taken as a whole?
    Mr. Lynch. Either way. I think that would be helpful. That 
is a tall order. I'm not so sure you've broken it down into 
that level. But that's what I'm thinking about.
    Ms. Badgett. We have broken it down to that level, and the 
direct spending, which comes largely from health benefits and 
the annuity payments, is the smaller of the two by our 
estimates.
    In a given year, it varies. It will add up over time 
because we've made the assumption, for purposes of estimation, 
that retirees of current employees would be eligible.
    So if I said that right, current employees, when they 
retire, their partners would receive these benefits. So those 
will accumulate over time in terms of the health care benefits, 
but because of the lower annuity payments, much of that will be 
offset. So that's actually a fairly small annual amount. It 
starts off being zero on Day One, but over time would rise over 
10 years to about $31 million a year.
    On the other side, in terms of discretionary spending--so 
we've taken out the Postal Service cost, we've taken out the 
tax revenue offsets. In those cases it starts out at roughly 
$52 million. This is our study--we did it last year so it's the 
last fiscal year--and would increase overtime to about $84 
million by the end of 10 years. So the total for 10 years would 
be $660-some million.
    Mr. Lynch. I tried to read through all of the information. 
You came up with an assumption, I think it was 34,000 employees 
same-sex partners within the Federal Government. How did you 
arrive at it? How did you extrapolate that number? I was just 
curious.
    Ms. Badgett. We actually measured it. Since 1990, both the 
Census and now the American Community Survey have allowed us to 
identify people who say they have same-sex unmarried partners 
in their household. We counted them up in the American 
Community Survey and found there were 34,000 same-sex couples 
in which at least one person was a Federal employee. And in 
about 4,000 of those cases, both partners were Federal 
employees.
    Mr. Lynch. That would have been my next question.
    Ms. Badgett. So that leaves about 30,000 people that we 
would be concerned about.
    Not everyone who has a domestic partner would sign that 
partner up for benefits. We know this from many other 
employees' experience. We estimated the number who would sign 
up by looking at the employment status of the partner. Many of 
those people will have employers who offer them health care 
benefits already, so they may not be interested in signing up 
for their partner's benefits in the Federal Government.
    And after we made those adjustments, looking at the figure 
in the BLS about how many employers offer health care benefits, 
we cut that number roughly in half. So that's how we ended up 
with the 14,000 figure that we use in the report.
    Mr. Lynch. OK. Thank you.
    My time has just about expired.
    I will now recognize the gentleman from Utah, Mr. Chaffetz, 
for 5 minutes.
    Mr. Chaffetz. Thank you all for being here and taking the 
time and being patient with us in terms of the timing. So thank 
you.
    Let me start with you, Ms. Wright. My understanding is that 
your policy was implemented in the year 2000. Do you have any 
quantifiable data that proves or demonstrates that this policy 
retains employees? Do you have any quantifiable data to share 
with us?
    Ms. Wright. What I can say is part of a larger package of 
benefits, we know we have a very low turnover rate at our 
airline, we know through anecdotal----
    Mr. Chaffetz. You don't have anything quantifiable that 
would distinguish----
    Ms. Wright. Nothing that would attribute it to any single 
individual item like this. But we do know anecdotally that we 
have people who choose to----
    Mr. Chaffetz. I would note anecdotal information is 
important, but I would also note it's anecdotal. There's 
nothing that distinguishes, identifies, or can quantify 
something that we are trying to quantify.
    Let me followup on the chairman's question here, going back 
to Ms. Badgett here.
    In your testimony, you state that 20 percent of people in 
same-sex couples are uninsured. Have you done any research? 
Because my understanding is that opposite-sex couples that are 
engaged in relationships actually represent a much higher 
uninsurance rate than same-sex couples. Is that your 
understanding?
    Ms. Badgett. Yes, that is correct. We found that in the 
same-sex study.
    Mr. Chaffetz. Do you believe that this bill in any way 
discriminates against anybody else? I'm not trying to give you 
a trick question. But my concern is you have heterosexual 
couples who maybe aren't married--because becoming married, it 
takes a commitment, there is a lot of paperwork, there are 
legal ramifications, it's very difficult to untangle that 
relationship from a legal standpoint.
    Do you believe that this legislation--because I do--
discriminates against heterosexual couples?
    Ms. Badgett. I wouldn't call it discrimination. As the last 
panel had a discussion about this same topic, they pointed 
out--and I think this is correct--that when you compare the 
situation of someone in a same-sex, unmarried couple, to that 
of someone in a different-sex unmarried couple, there is no 
option. There is no legal way for the same-sex couple to 
establish a legal relationship that would allow them to get 
these benefits. For different-sex couples, they do have that 
option.
    So from that perspective, no, I don't think that's 
discrimination.
    Mr. Chaffetz. We'll go ahead and disagree on that one, but 
I appreciate it.
    I would just note here the majority memorandum states that, 
``Although costs will increase for the Federal Government under 
this bill, it will also generate an increase in income and 
payroll taxes.''
    I could see where there is taxing on benefits and the 
ramifications that this would have, not only on individuals bus 
also to the Federal Treasury, but I also find a huge, huge 
disparity between, oh, this is only going to affect 0.2-
something percent--as I heard on the first panel--and then to 
others who want to say, oh, no, the same-sex couple population 
is like 10 percent. It's huge. It's huge.
    How do we deal with the huge disparity in those numbers, 
because they seem to be used at convenience probably on both 
sides? But I can't find anything that's quantifiable nor do I 
believe that the Census data, which is now nearly 10 years old, 
provides adequate information or background to try to assess 
the true cost of what it would cost to implement this.
    Ms. Badgett. Well, addressing that particular question 
you've raised two separate issues of measurement, and that's 
how I look at this. One has to do with how do you count the 
number of people who think of themselves as being lesbian, gay, 
or bixsexual, which I think is a very different question. 
That's where the 10 percent is often raised. And I think that 
is a completely different issue.
    In thinking about how many couples will actually sign up 
for benefits, you are looking at, first of all, a much smaller 
group. Those are people who are in relationships in which they 
live together.
    So the unmarried partners are counted in the Census and the 
American Community Survey, which is actually done every year. 
So we've used much more up-to-date figures than the Census 
figures. So that's a much smaller pool of people.
    And then in thinking further about the people who need 
those benefits because they don't have access to them either 
because they're Federal employees themselves or because they 
have an employer who offers those benefits, at that point you 
are starting to whittle away at that much larger number. And 
our goal as analysts is to get down to the point of trying to 
figure out how many people will actually want to sign up for 
those benefits.
    And that will be reflective of at least a couple of other 
things. One, that tax payment is going to be a disincentive for 
many people to sign up for them. So that will, perhaps, reduce 
some of the folks who sign up.
    And then, finally, there is perhaps some concern about 
stigma if people believe that they will be thought of as 
lesbian, gay, or bisexual, which is probably how they will be 
thought of if folks know that they are in a same-sex 
relationship. Then they may also be reluctant to sign a piece 
of paper saying that.
    That's why that's important. We haven't talked too much 
about it, but that is why I believe it's important to have both 
a very strong nondiscrimination policy alongside of a domestic 
partner benefits policy to ensure the people who sign up for 
benefits won't be hurt in some other way.
    Mr. Chaffetz. Thank you. I see I'm out of time.
    Mr. Lynch. Mr. Cummings for 5 minutes.
    Mr. Cummings. I want to thank you all for your testimony.
    Ms. Wright, I find it very interesting what American 
Airlines has been able to achieve. In your testimony, you talk 
about what actually began happening back in 1993. And as I 
listened to just the last set of questions here, I'm wondering 
how did you all break through to be able to accomplish what you 
accomplished? What kind of hurdles did you overcome and how did 
you get to where you are today? It seems like you had to go 
against some pretty heavy artillery. I'm just guessing.
    Ms. Wright. I think that is a fair statement.
    As I'm sure you can well imagine, you get there through a 
conviction of knowing what you are doing is right. And at 
American, we have employees from all walks of life, all 
cultures, nations, genders, races, religions, and sexual 
orientation. And for us, the diversity is becoming woven into 
the fabric of our company, and it's about what we've come to 
create as an understanding that diversity and inclusion is not 
about all having the same background, the same beliefs, but in 
acknowledging and accepting the diversity of beliefs and 
valuing what each individual brings.
    And so it's that sort of core understanding on the part of 
our company and our employees of what diversity means, and the 
acceptance of that helps us get through when there are 
disagreements and different perspectives. It's a matter of 
bringing them all forward and letting them all be heard.
    Mr. Cummings. You talk about morale. How do you determine 
that you have stronger morale when you have these kinds of 
problems? How do you come to these kinds of conclusions?
    Ms. Wright. I think there are several things. One, we have 
a very low turnover rate. We do periodic surveys of our 
employees. We try to understand what, through those surveys, 
retains people, and when they leave, when they exit, why they 
exit, to understand where we are doing well and where we can be 
stronger. And we continue to take all of that information, plus 
the anecdotal evidence, talking to the employees and not just 
the lesbian, gay, bixsexual and transgender employees, but 
other employees who understand and value the inclusiveness and 
the respect for the individual that's demonstrated by our 
policies.
    So we look through all of that and say, are we on the right 
track? It's a journey. It's not a destination. And we continue 
to evolve in trying to be more inclusive and doing a better job 
of making it a part of our culture.
    Mr. Cummings. As you moved to bring about those types of 
policies, was there any kind of education accompanying that? In 
other words, to create the kind of sensitivity or hope to 
create the kind of sensitivity, because I think what happens so 
often is that when you come up with new policies like this, 
there are people who have some hidden, sometimes on the 
surface, sometimes in-your-face type of feelings, and those 
feelings can come out. And I think, just as Ms. Badgett said, a 
lot of times people are reluctant to talk about their personal 
lives, and to have to make a declaration perhaps opens them up 
to some suffering.
    Ms. Wright. Yes.
    Mr. Cummings. I'm just wondering, as you went through this, 
did you anticipate those kinds of problems, and, if anything, 
what did you do in anticipation?
    Ms. Wright. We did anticipate and we do learn as we go as 
well. It's a combination of the two. We do training on a broad 
basis about diversity in general. And one of the things we talk 
about is knowing who's in the room. Sometimes diversity is 
obvious, sometimes it's not obvious. So understanding that and 
providing training for all of our employees on diversity and 
inclusion.
    We also have a Diversity Advisory Council [DAC], which is 
made up of representatives from each of our resource groups 
which represent a wide range of demographic groups. Through 
that council, we get a lot of advice. We include all of the 
leaders of the different demographic groups and our different 
employee research groups to come together and help us figure 
out how we can do more to support.
    And then where we have unique situations, such as a 
transgender pilot, we will provide specific training and 
counseling to people immediately around that area or in the 
areas where problems exist. We'll go in and provide additional 
training and counseling for the employees in those areas to try 
to help them come to terms and better understand and embrace 
the inclusive approach that we are taking.
    Mr. Cummings. Thank you very much.
    Thank you, Mr. Chairman.
    Mr. Lynch. Mr. Franklin, we've been guessing and trying to 
extrapolate through studies what the impact might be on the 
Federal budget by extending these benefits. You've had very 
real experience with CalPERS. You've had to grapple with the 
costs, you have had to grapple with administering this, just as 
we are sort of thinking about this, with the affidavits and 
verification.
    Tell us about your experience. What did it mean to the 
bottom line at CalPERS and what difficulties did you have in 
doing the whole administrative piece, getting people to come 
forward? Was it in an affidavit-type situation, registration-
type system? How did you handle that?
    Mr. Franklin. Thank you, Mr. Chairman, for the question.
    Fortunately for CalPERS, our experience was not onerous. 
The Secretary of State, after the legislation was passed, set 
up an online registration system. Additionally, made hard-copy 
registration available at various Secretary of State offices.
    In regards to cost in general, as I stated earlier, $19.5 
million was our total cost. However, we spent close to $6 
million annually for health care benefits. The total number of 
individuals or members who are enrolled in our Domestic Partner 
Health Benefits Program is less than a half a percentage point. 
So therefore, our membership in that regards was not large.
    In terms of other administrative challenges, the biggest 
administrative challenge was managing the tax implications and 
looking at how our State Controller Office would manage those 
folks who were not exempt, did not have tax exemptions. That 
was a large part of the work. However, that was done in fairly 
short order, given that there were other IT changes afoot at 
our State Controller's Office.
    But all in all, I think our approach initially was one that 
we wanted to create an environment where California recognized 
the diversity of our State. We wanted to ensure that as an 
employer, our benefits were in alignment for all of our 
employees. So the actual enactment of the legislation was not 
problematic.
    Mr. Cummings [presiding]. Let me ask you something, Ms. 
Wright. You know, a lot of times you hear people say they worry 
there might be fraudulent activities in regards to these 
things. You hear those arguments all the time. It's quite a bit 
of experience you have. It's been quite a few years now. I'm 
wondering what you've found. Have you had any kinds of 
fraudulent activities that you know of?
    Ms. Wright. No significant fraudulent activity in terms of 
the domestic partner benefits. We do go through and we did an 
audit a few years back on all of our dependents, whether they 
be spouses, dependent children of domestic partners. I suppose 
with any large corporation, we found some cases but they really 
weren't a domestic partner. They were in heterosexual couples 
and married couples or dependent children. So fraud has really 
not been, in terms of domestic partners, a big issue for us.
    And we do go through an affirmative proof of eligibility 
process at the time of enrollment to verify the people are 
indeed eligible.
    Mr. Cummings. Had you all anticipated that there might be 
problems with that?
    Ms. Wright. I don't think we anticipated the problems would 
be any greater or less with the domestic partner benefits than 
with any other benefit, whether it be married couples, 
dependent children, or common-law spouses. So I don't think we 
anticipated it would be a bigger issue, just proportionate to 
any other issue.
    Mr. Cummings. Now, Mr. Franklin, I think I asked Ms. Wright 
the question about this whole idea of morale, but we've also 
heard today that providing this benefit is good for the 
employer because it helps recruit and retain top talents. You 
found that to be the case?
    Mr. Franklin. CalPERS is not exactly the employer. We are a 
broker for the State of California. However, we do ask 
questions regarding recruitment, retention, absenteeism, in 
order to be better performed. We really haven't seen data 
either one way or the other in terms of the retention or 
recruitment. However, satisfaction surveys have shown in the 
past that when you ask questions around diversity and equity in 
the workplace, that this notion or this premise that everyone 
is being treated fairly is one we get very high marks on.
    Mr. Cummings. That's interesting. As I was listening to 
you, Ms. Wright, the whole idea that something can come about, 
and then it's new and a lot of people have questions about it, 
and then what's new becomes old. And then it becomes the norm. 
The problem is getting through the process. And I think that's 
the difficulty quite often.
    My mother used to say, ``Integrity is about doing what you 
believe is right, and then withstanding the criticism and 
waiting for everybody to catch up.''
    And so I think that the things that we are talking about 
today, may be new for some. For some it hasn't even come into 
existence yet. But at some point, I think it will be the norm 
and maybe we'll move to another level.
    Ms. Badgett, let me ask you one last question.
    Your testimony states that you've worked with numerous 
employers on implementing domestic partner benefits. Can you 
tell us what the main reason employers cite for providing these 
benefits, other than costs, and what do they tell you is the 
main challenge in implementing the benefits?
    Ms. Badgett. I would say that employers usually refer to 
two reasons to offer these benefits. The first is the one that 
you hear a lot about. It's about competing with other companies 
for the best employees.
    The second one has to do with equity issues, with treating 
all employees fairly. So they--in my experience--frequently 
cite those roughly equally. Those are the two issues.
    In terms of the implementation piece of it, I think the 
concern that most employers seem to have is with regard to the 
taxable imputed income that they have to adjust their payroll 
systems to reflect. And that can sometimes be a little bit 
unwieldy for employers, but they only have to do it once. So 
it's something that's a one-time cost.
    Mr. Cummings. Did you want to say something?
    We are going to take a slight break. Mr. Lynch is coming 
right back, and then we'll go to our third panel. Thank you all 
for your patience and thank you all for your testimony.
    [Recess.]
    Mr. Lynch. I want to thank you all for your patience and 
your willingness to come before this subcommittee and help us 
with our work.
    I apologize for the interminable delays that have gone on 
today. Some of them intentionally, unfortunately. But this is 
an important enough issue that we have a full and fair hearing 
here, and we intend to do just that. I know there were some 
witnesses who have offered testimony in writing, and we'll 
accept that without objection.
    But in continuance of our hearing, I want to introduce our 
next panel.
    Ambassador Michael Guest served as America's first openly 
gay Senate-confirmed U.S. Ambassador during his tenure to 
Romania from 2001 to 2004. Mr. Guest currently serves as senior 
adviser to the Council for Global Equality, which was formed in 
September 2008 by a coalition of human rights organizations 
that advocate for a stronger and more consistent U.S. 
Government and corporate voice on behalf of lesbian, gay, and 
transgendered human rights protections at home and abroad.
    Ms. Lorilyn ``Candy'' Holmes has been an employee with the 
U.S. Government Accountability Office for 33 years in spite, 
believe it or not, of her youthful appearance. She is 
responsible for the oversight of various agency-wide 
information technology programs. A native Washingtonian, Ms. 
Holmes is an ordained clergy with the Metropolitan Community 
Churches, which is the world's largest and oldest Christian 
denomination, with primary affirming ministry to the lesbian 
and gay and transgendered community along with family, friends, 
and allies.
    Dr. Frank Page currently serves as the pastor of the First 
Baptist Church of Taylor, SC, and has previously held the 
position of president of the Southern Baptist Convention. A 
native of Robbins, NC, Dr. Page is the author of several books 
and scholarly articles as well as a member of President Obama's 
Council on Faith-Based and Neighborhood Partnerships.
    I realize that we have far exceeded the estimated limits of 
time thus far. It is the custom of this subcommittee to ask all 
witnesses who are here to offer testimony be sworn. Could I ask 
all of you to raise, stand and raise your right hands.
    [Witnesses sworn.]
    Mr. Lynch. Let the record indicate that all of the 
witnesses have answered in the affirmative.
    I will begin by offering 5 minutes for an opening statement 
to Ambassador Guest.

 STATEMENTS OF AMBASSADOR (RET.) MICHAEL GUEST, FORMER CAREER 
   FOREIGN SERVICE OFFICER; LORILYN HOLMES, CURRENT FEDERAL 
EMPLOYEE, REVEREND, METROPOLITAN COMMUNITY CHURCHES; AND FRANK 
 PAGE, PASTOR, FIRST BAPTIST CHURCH OF TAYLOR, SC, PRESIDENT, 
                SOUTHERN BAPTIST CONVENTION 2006

                   STATEMENT OF MICHAEL GUEST

    Mr. Guest. Mr. Chairman, thank you for inviting me to share 
my perspective on this bill.
    For more than half of my life, I served our country as a 
career Foreign Service Officer. I was honored to represent our 
country, and I am proud of my accomplishments, but in December 
2007, I ended my career after having sought, without success, 
to amend policies that discriminate against gay and lesbian 
Foreign Service personnel.
    While sharing the same service obligation as my colleagues, 
my family had no benefits. My partner had sacrificed his career 
to support me in serving the country that we both love and in 
return was treated as a second-class citizen in our overseas 
postings. And I couldn't reconcile how an administration so 
consumed with the fight against terrorism would knowingly put 
my partner's life at risk and indeed put the security and 
effectiveness of our embassy communities at risk to policies 
that base protections needlessly on marriage, an option that, 
of course, is unavailable to us.
    Mr. Chairman, the State Department's specific inequalities 
that I challenged have framed my perspective, and those are 
offered in detail in my written testimony.
    As examples, the Department would not train my partner in 
how to recognize a terrorist threat or a counterintelligence 
trap, thus putting his life and indeed U.S. interests at risk. 
He had no guarantee of being evacuated whether for life-
threatening medical reasons or to escape political violence 
that might close an embassy.
    The Department would not train him in the informal 
community leadership roles that he, as my partner, was, in 
fact, expected to fill. Unlike spouses, he had no diplomatic 
protections nor could he compete for jobs that the embassy 
needed to fill, regardless of his qualifications; and while the 
Department paid to transport pets to and from posts, it 
wouldn't pay my partner's airfare as if the government for 
which he sacrificed so much considered him to be less important 
than a dog.
    Now, I trust you can see the ironies. As a diplomat, I 
advanced American principles of equality, fair play, and 
respect for diversity in the countries to which I was posted; 
and yet the very agency that charged me to represent those 
policies showed no respect for those principles and how it 
treated those of us who are gay or lesbian. Nor did that agency 
that drills crisis management, diversity awareness, and 
leadership skills into all employees show any concern at all on 
the issues of health, safety, morale, and effectiveness that 
stem from these discriminatory policies.
    Now, Mr. Chairman, I still believe that America is still 
the greatest country on Earth, and I'm proud of the time that I 
spent in the State Department, but my experience in seeking 
redress of these inequalities made me realize that this is not 
the America I believed in when I came to Washington some 30 
years ago to work, in fact, as an intern here on Capitol Hill.
    You see, the issue we are here to address is not about 
personal belief, and it is not the definition of marriage. 
Those are red herrings. It's workplace fairness, and it's civil 
rights. Somehow we, as a country, have allowed the term 
``equality,'' which is an absolute term, to be redefined to 
mean more rights for some individuals and fewer for others.
    LGBT Americans are not demanding so-called special rights, 
as some claim, through this or any other bill. How is it that 
we are debating even today whether citizens who are gay should 
enjoy the same fundamental protections as others that we work 
with, who live in our communities, work in offices and 
factories, and, yes, share a fellowship in our place of 
worship.
    And, in that regard, I want to mention, when I was a 
student at Furman University many years ago, I attended First 
Baptist Church in Taylor, SC, which is represented here by my 
fellow panelist.
    Mr. Chairman, I was reluctant to relive before this 
committee the most painful chapter of my life, the decision to 
leave a career that I love. But, for me, this is a matter of 
closure. When President Obama took his action on the 17th of 
last month to redress the issues at the State Department, I 
took my partner's hand and quietly apologized to him that this 
action couldn't have come sooner for his sake.
    And now the spotlight is on Congress. The bill before you 
addressees a range of benefit that remains out of reach for 
Federal employees for same-sex partners. These have been 
detailed by other panelists. They're as critical to our 
families as they are to us, and I respectfully ask that you 
close this gap.
    You've heard many solid arguments for this bill based on 
things like worker retention and budgetary impact and 
comparisons to corporate policies, but I ask you to support 
this legislation for different reasons.
    First, principle is at stake. Equality, fair mindedness, 
and respect for diversity are at the heart of America's 
identity. This bill would honor those principles and bring us 
closer to fulfilling those ideals.
    But, second, this bill is about people. Those of us who are 
gay have the same aspirations, the same hopes, and the same 
needs as any of you. We have families that we love, that we 
need to take care of, just as you do. We are humans like you. 
We love and support our country like you do. And we ask only to 
be treated fairly and equally and that our families be provided 
with the same protections and benefits that are provided to 
yours.
    I have been in Washington almost three decades, and I've 
heard over and over that policy issues related to gay and 
lesbian Americans are just too hard to tackle and that other 
agendas must come first and that the time is not now. This 
issue is hard only because we make it so. And surely we can 
come together as a country and as a people to do the right 
thing for families who have yet to recognize and realize the 
equality to which we, as citizens, are entitled.
    I thank you, Mr. Chairman.
    [The prepared statement of Mr. Guest follows:]

    [GRAPHIC] [TIFF OMITTED] T2628.059
    
    [GRAPHIC] [TIFF OMITTED] T2628.060
    
    [GRAPHIC] [TIFF OMITTED] T2628.061
    
    [GRAPHIC] [TIFF OMITTED] T2628.062
    
    Mr. Lynch. Ms. Holmes, you are now recognized for 5 
minutes.

                  STATEMENT OF LORILYN HOLMES

    Ms. Holmes. Good evening, Chairman Lynch. I appreciate this 
opportunity to testify before you in favor of domestic partner 
benefits for Federal employees. I appreciate that my partner 
and a portion of my family are also present.
    It's been a long time since I have visited the Rayburn 
Building where my father worked years ago as a laborer serving 
in these same hearing rooms. He would take me by the hand and 
walk me through these very halls of Congress explaining this is 
where decisions are made, Candy, that impact us all. I would 
have never imagined I would return to be speaking before you 
today before you now on a topic of such importance to me and to 
countless others. I believe my father is looking upon us from 
celestial heights, proud that I am here. Thank you for 
convening this hearing.
    My name is Candy Holmes, and I am a Federal employee, a 
manager with the Government Accountability Office in 
Washington, DC. I have worked at the GAO for 33 years--
absolutely 33 years. I am here to speak not only about my story 
but to express my views on the merits and the need for this 
legislation, that it ensures that lesbian and gay Federal 
employees and our same-gender partners receive the same 
benefits that are granted to our opposite-gender married 
Federal employees.
    I am not here speaking as a representative of the GAO. I am 
testifying on my own behalf.
    It is also important for me to share with you that I am 
lesbian, and I am Christian, and for the last 20 years I have 
been a part of the Metropolitan Community Churches, and I am an 
ordained clergywoman. I'm in a same-gender relationship with 
the Reverend Darlene Garner. We are in a loving, committed 
relationship in which we worry about our children, take pride 
in our grand and great grandchildren, make a home together, and 
plan our retirement together.
    Darlene is also ordained clergy with the MCC and serves as 
part of the denomination spiritual leadership. Because she is 
an employee of MCC, she relies on limited employee benefits and 
a retirement plan that will provide less than $120 a month when 
she retires.
    There are many families like ours. The difference is this. 
The government to which I have devoted 33 years of my working 
life will not honor my partnership because I love another 
women, not a man. There are many voices and stories you will 
not have a chance to hear, so I share from our collective 
experiences of unfair treatment and unjust Federal policies.
    I entered the Federal Government in 1977. And in that day, 
it was enough that I was also dealing with the dynamics of 
being African American and a woman in the Federal workplace. So 
I was a closeted lesbian. I worked in utter fear that I would 
be found out and suffer the consequences. Like many others, I 
chose to be silent; and that rendered my life invisible.
    Recently, I came to a tipping point in my life. The 
decision in California to uphold Proposition 8, the ban on gay 
marriage, sent me a stark, clear, yet unbelievable message that 
discrimination can be legalized again. I was outraged. So I am 
here to bear witness openly as a lesbian Federal employee who 
seeks fair and equal treatment.
    Federal employees who are married to someone of the 
opposite gender are automatic beneficiaries of Federal 
benefits. My family and others like us are automatically 
denied. It is disturbing and demoralizing to be treated as a 
second-class citizen and worker and told that I cannot enjoy 
the benefits of my labor on an equal footing with my opposite-
gender counterparts.
    Being treated as a second-class citizen is eerily familiar 
to me. Same church, just a different pew. There was a time in 
this country when being treated differently because of the 
color of my skin was simply the way it was. Being treated so 
unfairly now because of who I love is more than a matter of 
fairness; it is an issue of civil rights.
    My partner and I are preparing for our retirement years 
now. Unless this act is adopted now, the economic impact of my 
retirement on my family will be dire, as though I had never 
dedicated 35 years of my life to my career as a Federal 
employee.
    No opposite-gender married couple will ever have to think 
about this, ever have to even think about such a thing because 
they had been privileged by right of legislation. Government 
should work for us, not against us.
    In summary, Chairman Lynch, the family benefits in question 
are a significant portion of employee compensation because gay 
and lesbian Federal employees do not receive equal pay for our 
equal contributions. It is clear that this act would be a first 
step in the right direction toward eliminating discrimination 
and compensation.
    As I conclude, I would like to thank the cosponsors from 
both the House and the Senate for their ongoing efforts to move 
this act to this point and for linking their hands with mine 
and others on the arc of history to bend it once more toward 
justice.
    During these days of uncertainty, I remind us all of the 
words of President Obama from his inaugural address: The time 
has come to reaffirm our enduring spirit to choose our better 
history, to carry forth that precious gift, that mobile idea 
passed on from generation to generation, the God-given promise 
that all are equal, all are free, and all deserve a chance to 
pursue their full measure of happiness, including Federal 
employees like me. There is no wrong time to do the right 
thing.
    Thank you and God bless. I will be happy to take any 
questions you may have.
    [The prepared statement of Ms. Holmes follows:]

    [GRAPHIC] [TIFF OMITTED] T2628.063
    
    [GRAPHIC] [TIFF OMITTED] T2628.064
    
    [GRAPHIC] [TIFF OMITTED] T2628.065
    
    [GRAPHIC] [TIFF OMITTED] T2628.066
    
    [GRAPHIC] [TIFF OMITTED] T2628.067
    
    [GRAPHIC] [TIFF OMITTED] T2628.068
    
    [GRAPHIC] [TIFF OMITTED] T2628.069
    
    Mr. Lynch. Dr. Page, we are thankful that you stayed. You 
are now recognized for 5 minutes.

                    STATEMENT OF FRANK PAGE

    Mr. Page. Thank you, Mr. Chairman. I do appreciate the 
opportunity to address this committee, though singular you are 
at this particular moment.
    I've heard much talk today in the 6 hours plus that I have 
sat here about diversity, equality, fairness, but I have to 
note for the record in the interest of fairness, I'm the only 
person asked to speak as a witness today who speaks in 
opposition to this proposed bill, H.R. 2517.
    I have heard a great deal of verbiage today about how this 
would make the government on equal footing regarding 
recruitment and retention. I've heard many things about 
fairness; I understand that and I hear that in my heart. But I 
do believe this is a part of a social agenda, and I do speak in 
opposition to H.R. 2517, primarily because of two reasons. One 
is moral; one is financial.
    I do believe that it has been the perennial role of the 
government to support the institutions of society such as 
marriage; and, in this instance, I think this is taking a 
direct role in opposition to a traditional definition in 
support of that which marriage has traditionally been.
    I believe that the government has always stood to support, 
not to discourage. I do believe in moral absolutes. Those are 
words we've not heard today. Those are words that are not 
popular in our culture today. But I do say that I do believe 
there are moral absolutes.
    I was excited to hear Ambassador Guest say that he had 
attended our church. I would love for him to attend again, and 
he would find a place of love and welcome. But he will also 
hear again biblical truth that marriage is one man, one woman, 
freely and timely committed to each other as companions for 
life. We believe that the government ought to support the role 
of marriage in our society.
    We also, as unpopular as it is today, believe that this is 
a part of a social agenda that continues to seek normalization 
of the homosexual lifestyle that I, and I believe many other 
evangelicals, not all, certainly oppose. We care for people, we 
do love people, but we are painted as if we are hateful, 
caricatured as mean spirited. We are not, but we do believe 
there are absolutes, and we stand by them.
    This bill promises equal treatment, but I believe that it 
has created an elitism. For example, it's been pointed out 
today that heterosexual couples, opposite-gender couples would 
not be allowed to have the same benefits. It's been pointed 
out, well, they can get married. Well, there are same-sex 
couples that do not wish to get married. There are opposite-sex 
couples that do not wish to get married for many reasons. This 
sets aside same-sex couples as an elite class, and those same 
benefits would be denied to opposite-sexed couples who choose 
not to marry.
    So I do believe that this is creating a discriminating 
bill. It is a discriminating bill; and, again, I think that is 
improper.
    Do I personally oppose same-sex couples who live together 
without marriage? Yes. Do I oppose opposite-sex couples who 
live together? Yes. We do believe that is improper. For moral 
reasons but also financial reasons.
    I do believe that this creates an opportunity for abuse. 
I've heard the promises today of supposed safeguards. But I've 
got to tell you, Mr. Chairman, that I, like many Americans, 
don't trust the government's ability to guard itself in its 
policy real well, and I hope that doesn't come as a great 
surprise to you. But I have deep concerns about the moral 
implications about this bill, also about the financial 
possibilities. I do encourage that this bill will be defeated 
and that we will see the government continue in some small form 
to lead corporations and society in the protection of 
traditional marriage.
    Thank you for listening to my comments.
    Mr. Lynch. Let me begin with Ambassador Guest.
    First of all, thank you for your service to our country. I 
appreciate that greatly. I regret that the situation existed 
that treated you in a way that you felt that you could not 
continue in our service, because I think we have, lost out. We 
have suffered not only because of your own decision, but I'm 
sure that there are thousands of employees that have probably 
made the same decision over time as a result of this policy.
    Let me ask you. You also, in your last few years of 
service, began to advocate on behalf of changing the laws and 
changing the regulations as they apply to Federal employees. We 
are looking at a proposal today offered by Ms. Baldwin subject 
to some technical amendments being suggested by the Office of 
Personnel Management. But, basically, what they're suggesting 
is that, in order to extend these benefits, they will require 
gay and lesbian employees to file a sworn affidavit under the 
penalties of perjury that they have a long-term commitment, 
solid commitment, in some cases, marriages recognized in other 
States, and that they want the benefits that they receive as 
employees to be extended to their spouse, to their domestic 
partners.
    The idea of requiring employees to come forward requiring 
to sign an affidavit, especially in the Federal Government 
context, can be somewhat intimidating. And I just want--I 
wonder how you see that, the administration of that practice, 
affecting the utilization rate among gay and lesbian employees 
in the Federal workplace.
    Mr. Guest. Thank you for the question, Mr. Chairman.
    I don't think that this is an onerous requirement, to be 
honest. Had we been speaking 20 years ago, things might have 
been different. But I think our society has evolved in a way 
where people are much more open about who they are and more 
honest. Honesty is a value that I think is very, very important 
in life; and I think many people now are much more honest.
    I, frankly, don't know that it is entirely necessary. I 
certainly believe that Federal employees who have security 
clearances would never risk their security clearance on the 
promise of a false affidavit. I don't think that people would 
be willing to jeopardize their employment, also. But I do 
believe that, in the interest of making sure that this process 
works as smoothly and effectively as possible and that there is 
no fraud, that having this sort of an affidavit would not be 
objected to by any member of the Federal Government that I 
know.
    Mr. Lynch. Ms. Holmes, you had a perspective as a parent as 
well as a partner in this. With over 33 years going through--
you've got a compelling story, and it gives great power to your 
testimony today. How has that affected your extended family 
life in dealing with this policy over the years? How have your 
children been affected by being, I think, unfairly treated by a 
policy that obviously distinguishes between heterosexual 
families and homosexual families?
    Ms. Holmes. Well, Chairman Lynch, in our case, my partner 
and I, when we came together, the children were already grown. 
They were young adults, so we were not impacted by this--not 
being included or not being able to use the health benefits.
    But that being said, such an exclusion still has a heavy 
impact on my colleagues. And I can share from their experiences 
in blending families and with our children, our partners, we 
share parenting responsibilities and love all of the children 
without distinction. However, the Federal Government does not 
consider the children of our same-sex partners as being our 
children.
    I know of many same-sex couples who live in such a blended 
family situation and coverage under the Federal employees 
health benefit program would not cover them. It is not 
available to the children of our partners. When the children 
are ill, the birth or adopted children of Federal employees can 
be treated by a private physician. If the partner is a stay-at-
home parent, or for whatever reason is uninsured, the partner's 
ill child sometimes must go without health care or it must, at 
most, turn to public services for health care.
    Mr. Lynch. Dr. Page, a number of the members of previous 
panels, in response to questions by the ranking member, Mr. 
Chaffetz of Utah, there was an exchange here on several 
occasions about the idea that, as you stated in your testimony, 
single heterosexual couples living together were being 
discriminated against under this bill because they would not be 
afforded the same rights that gay couples would be afforded as 
it's currently drafted. And the response from some of the 
witnesses, several of them, was that the heterosexual couples 
have the opportunity to marry and upon that marriage, 
unquestionably, they would be afforded the benefits. Nothing 
further needs to be done.
    And you have made the same argument that heterosexual 
couples are being discriminated against. How do you reconcile 
that fact that one couple can go ahead and get married and they 
get the benefits just like that and the other one, the gay 
couple or lesbian couple, can achieve that same result?
    Mr. Page. Well, I mean that is a separate issue. The issue 
of marriage is very clear, that under Federal law right now 
they are not married and they cannot get married. That's a moot 
point to me. Because that is not an even a possibility at this 
point, as far as Federal law.
    But what I was simply saying is this: there are many same-
sex couples that simply do not choose to get married for 
whatever reason. There are many opposite-sex couples that 
choose not to get married. But there are many people, for 
example, who are in relationships or friendship, may even live 
together, elderly persons, young persons, whatever the age 
might be. Why should they be discriminated against, that 
they're not going to be allowed to get the same benefits that a 
same-sex couple would get?
    I'm simply saying it's discriminatory purposely because the 
only protected clause in this particular piece of legislation 
are same-sex couples, automatically discriminating against 
those who are opposite sex. They choose not to get married. 
That's not my business. That's not your business. That's their 
business. But the government is automatically discriminating 
against them.
    Mr. Lynch. But it is the operation of law that a gay couple 
cannot get married, even though they have a long-term, 
committed relationship.
    Mr. Page. And that is true.
    Mr. Lynch. And it's the operation of law that, you know, 
heterosexual couples can.
    Mr. Page. But I'm not arguing what's legal and what's not 
legal. I'm arguing what is discriminatory and what is not 
discriminatory.
    Mr. Lynch. Is that connected?
    Mr. Page. Yes, sir.
    Mr. Lynch. I understand, but this is a legislative body.
    Mr. Page. Yes, sir.
    Mr. Lynch. I am a lawmaker, so we've got to talk about the 
law.
    Mr. Page. All right. Well, then let's respect the law that 
is currently on the books that says these persons are not 
married.
    Mr. Lynch. The law is not a static entity. We're here 
because a very respected member of the legislature has come 
forward with a proposal to change the law, to extend the 
benefits. And I respect your position. I don't----
    Mr. Page. No, sir, I don't think you do, but thank you for 
saying that.
    Mr. Lynch. No, no, I do respect you. However, we are trying 
to grapple with the issue of, in this case, as presented by 
some, equal work for equal pay or equal pay for equal work. And 
I think that there is a valid case being made when you do a 
comparative assessment of how each person is treated, and I 
think there is a fair statement that it's drastically different 
for Ambassador Guest in his situation versus some of my other 
heterosexual employees and the benefits that have been afforded 
to them. You know, at least from an equal protection standpoint 
I think there's fair argument that's been put forward here.
    Let me just say this. There's no way I'm going to cover the 
whole landscape of questions that need to be asked this 
evening, but what I would like to do is to give each of you 
several minutes. If there are aspects of this debate today in 
the three panels that have not been covered, if there are parts 
of this debate that you'd like to emphasize or amplify or just 
summarize, that you think that a message that has not been 
heard here today, then I want to give you full opportunity to 
do that.
    Dr. Page, I'd like to afford you the first 3 minutes, if 
you'd like to. As I said, just put some messages on the record 
about your feelings on this and your positions on this. You're 
recognized for 3 minutes.
    Mr. Page. Thank you, Mr. Chairman.
    I do recognize that I rise in favor of a minority opinion. 
It's not very popular. It's not politically correct. But I do 
stand and say that the government should be in the process of 
encouraging the traditional marriage that has stood for many, 
many hundreds of years as that way that culture is best 
protected, and I think the government ought to be encouraging, 
not discouraging, and I think this act discourages.
    Thank you, sir.
    Mr. Lynch. Thank you, sir.
    Ms. Holmes, you're recognized for 3 minutes.
    Ms. Holmes. Thank you, Chairman.
    I want to start with saying the government is not a 
religious institution. For the Federal Government to afford all 
employees equal treatment does not require anyone to change 
their values or beliefs. It requires only that the Federal 
Government honor the legal doctrine of separation of church and 
State.
    And on a real personal note, it has been demoralizing to go 
to work each day knowing that I must endure the indignity of 
not receiving equal pay for my equal work. The spirit of the 
Declaration of Independence is that all people have the 
inalienable right to life, liberty, and the pursuit of 
happiness. Yet, being a lesbian and employed by the Federal 
Government has meant that I can't or haven't been allowed to 
exercise that basic American right for myself and my family.
    Thank you.
    Mr. Lynch. Thank you.
    Ambassador Guest, you're recognized for 3 minutes.
    Mr. Guest. Mr. Chairman, the three of us who are sitting 
before you now are all Christians. We all are men and women of 
faith and belief, but we are also all Americans. America is 
not, as my colleague has said, a theocratic society. This 
country was founded on certain principles, and among them were 
equality, among them were fair play, fairness, and justice. And 
these are principles that we represent in political discourse 
in this body and principles that we represent abroad when we 
are speaking about what America stands for, and those 
principles are denied by the law the way it now exists.
    You've pointed out that law is not static, that law changes 
both to deal with changing times, and from this perspective I 
would say it's not from changing times. It's to right wrongs. 
It's to right injustices.
    I find the argument that somehow this bill is 
discriminatory sheer sophistry. We would not be sitting here 
today having this discussion about this bill if one of two 
situations existed, one being that we, gay and lesbian 
Americans, were allowed access to marriage because all of these 
benefits that are attached to employment for the Federal 
Government are attached through the institution of marriage. 
The second circumstance would be if the government recognized 
that workplace benefits and protections and fairness should not 
be attached through marriage, that marriage should not be the 
fulcrum on which these benefits are offered, that there needs 
to be a principle established of equal rights for equal 
representation and equal service.
    And that's what this really is about. That's what this bill 
is about, and I would urge that the committee consider it in 
that light.
    Thank you.
    Mr. Lynch. Thank you.
    As you know, we had several hearings going on at the same 
time today. It's the way it works around here. It's not the 
best way, but it's the way it works. So what I'm going to do is 
I'm going to leave the record open for 5 days. That will also, 
you know, based on your testimony today will also give the 
other members of this committee an opportunity to submit 
questions to you in writing; and you will have 5 days to return 
those answers to the committee if necessary.
    But I want to thank you each. I really do appreciate all 
the testimony that's been offered to this committee. I thank 
you for your willingness, and it took courage for each of you 
to step forward and offer testimony to this committee under 
oath, and we appreciate that, and we thank you, and we bid you 
good evening.
    This hearing is now adjourned.
    [Whereupon, at 8:08 p.m., the subcommittee was adjourned.]
    [The prepared statement of Hon. Elijah E. Cummings 
follows:]

[GRAPHIC] [TIFF OMITTED] T2628.070

[GRAPHIC] [TIFF OMITTED] T2628.071

[GRAPHIC] [TIFF OMITTED] T2628.072

                                 <all>

</pre></body></html>
